<html>
<title> - VENEZUELA IN MADURO'S GRASP: ASSESSING THE DETERIORATING SECURITY AND HUMANITARIAN SITUATION</title>
<body><pre>[Senate Hearing 116-314]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-314
 
                VENEZUELA IN MADURO'S GRASP: ASSESSING 
                    THE DETERIORATING SECURITY AND 
                         HUMANITARIAN SITUATION

=======================================================================

                                HEARING


                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED SIXTEENTH CONGRESS



                             SECOND SESSION


                               __________

                             AUGUST 4, 2020

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

                               

                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
 ______                      


                  U.S. GOVERNMENT PUBLISHING OFFICE 
42-238 PDF                WASHINGTON : 2020 
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHN BARRASSO, Wyoming               CHRISTOPHER MURPHY, Connecticut
ROB PORTMAN, Ohio                    TIM KAINE, Virginia
RAND PAUL, Kentucky                  EDWARD J. MARKEY, Massachusetts
TODD YOUNG, Indiana                  JEFF MERKLEY, Oregon
TED CRUZ, Texas                      CORY A. BOOKER, New Jersey
DAVID PERDUE, Georgia
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator From Idaho....................     1

    Prepared Statement...........................................     2

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     3

    Prepared Statement...........................................     4

Abrams, Hon. Elliott, Special Representative for Venezuela, U.S. 
  Department of State, Washington, DC............................     6
    Prepared Statement...........................................     8

Hodges, Joshua, Senior Deputy Assistant Administrator for Latin 
  America and the Caribbean, U.S. Agency for International 
  Development, Washington, DC....................................    10
    Prepared Statement...........................................    12

              Additional Material Submitted for the Record

Responses of Elliott Abrams to Questions Submitted by Chairman 
  James E. Risch.................................................    39

Responses of Elliott Abrams to Questions Submitted by Senator 
  Robert Menendez................................................    39

Responses of Joshua Hodges to Questions Submitted by Senator 
  Robert Menendez................................................    47

Responses of Elliott Abrams to Questions Submitted by Senator 
  Chris Murphy...................................................    49

                                 (iii)

  


                 VENEZUELA IN MADURO'S GRASP: ASSESSING 
         THE DETERIORATING SECURITY AND HUMANITARIAN SITUATION

                              ----------                              


                        TUESDAY, AUGUST 4, 2020

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room SR-325, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Romney, Young, 
Paul, Cruz, Menendez, Shaheen, Coons, Udall, Murphy, and Kaine.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The Senate Foreign Relations Committee will 
come to order, please.
    I want to thank Special Representative Abrams and Senior 
Deputy Assistant Administrator Hodges for their service and for 
appearing here today to discuss the worsening crisis in 
Venezuela.
    It is hard to imagine a more pressing national security 
concern in the Western Hemisphere than the political, 
humanitarian, and economic crisis provoked by Maduro and his 
cronies in Venezuela.
    In the last 7 years, Nicolas Maduro has dramatically 
deepened relations with the most dangerous forces in the world, 
which were first established by his predecessor, Hugo Chavez.
    On his watch, Cuba, Russia, China, Iran, transnational 
criminal organizations, and U.S.-designated foreign terrorist 
organizations have turned Venezuela into their playground.
    Their activities are intolerable security threats to the 
United States and the hemisphere at large and prolong a 
humanitarian crisis provoked by the socialist policies of the 
regime.
    Nearly 5.2 million Venezuelans have fled their homeland, 
placing a huge burden on the neighboring countries that have 
generously accepted these refugees from Maduro's regime.
    Ninety-six percent of those who have stayed behind live in 
poverty, with 80 percent facing extreme poverty. Chronic food 
shortages and the dysfunctional public health care system have 
condemned an entire generation to hunger and stunted growth.
    A series of unsuccessful attempts to restore freedom in the 
last year, compounded by Maduro's desire and ability to stay in 
power by perpetuating corruption and torture have emboldened 
the regime and left democratic forces facing daunting 
challenges.
    President Trump's campaign of maximum pressure is a welcome 
improvement. We should leave no stone unturned in support of 
the Venezuelan people's efforts to rid themselves of this evil.
    It is also appropriate to continue providing assistance to 
enable Venezuela's neighbors to help the millions of Venezuelan 
refugees that they are hosting.
    The international community, especially the European Union 
and Spain, must increase economic pressure on Maduro if they 
are serious about the return of democracy to Venezuela and the 
end of the humanitarian nightmare there.
    We must make clear to Maduro's mentors in Havana and Moscow 
that this game is over.
    I look forward to hearing from today's witnesses about the 
steps the U.S. government is taking to counter the malign 
influences in Venezuela.
    With that, I know our ranking member has strong feelings on 
this, and I will yield the floor to him.
    [The prepared statement of Senator James E. Risch follows:]

              Prepared Statement of Senator James E. Risch

    This hearing will come to order.
    I would like to thank Special Representative Abrams and Senior 
Deputy Assistant Administrator Hodges for their service and for 
appearing today to discuss the worsening crisis in Venezuela.
    It is hard to imagine a more pressing national security concern in 
the Western Hemisphere than the political, humanitarian, and economic 
crises provoked by Maduro and his cronies in Venezuela.
    In the last 7 years, Nicolas Maduro has dramatically deepened 
relations with the most dangerous forces in the world, which were first 
established by his predecessor Hugo Chavez.
    On his watch, Cuba, Russia, China, Iran, transnational criminal 
organizations and U.S.-designated Foreign Terrorist Organizations have 
turned Venezuela into their playground.
    Their activities are intolerable security threats to the United 
States and the hemisphere at-large; and prolong a humanitarian crisis 
provoked by the socialist policies of the regime.
    Nearly 5.2 million Venezuelans have fled their homeland, placing a 
huge burden on the neighboring countries that have generously accepted 
these refugees from Maduro's regime.
    Ninety 6 percent of those who have stayed behind live in poverty, 
with 80 percent facing extreme poverty. Chronic food shortages and a 
dysfunctional public healthcare system have condemned an entire 
generation to hunger and stunted growth.
    A series of unsuccessful attempts to restore freedom in the last 
year, compounded by Maduro's desire and ability to stay in power by 
perpetrating corruption and torture, have emboldened the regime and 
left democratic forces facing daunting challenges.
    President Trump's campaign of maximum pressure is a welcome 
improvement from 8 years of halfhearted measures by the last 
administration.
    We should leave no stone un-turned in support of the Venezuelan 
people's efforts to rid themselves of this evil. We must also continue 
providing assistance to enable Venezuela's neighbors to help the 
millions of Venezuelan refugees that they are hosting.
    The international community, especially the European Union and 
Spain, must increase economic pressure on Maduro if they are serious 
about the return of democracy to Venezuela and the end of the 
humanitarian nightmare there.
    We must make clear to Maduro's mentors in Havana and Moscow that 
this game is over. I look forward to hearing from today's witnesses 
about the steps the U.S. Government is taking to counter their malign 
influence in Venezuela.
    With that, I will ask Ranking Member Menendez if he wishes to make 
any opening remarks.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, and thank you 
for working with me on this hearing. I appreciate it.
    Mr. Abrams, you come before the committee at an urgent 
moment for Venezuela, one with implications for the United 
States and our entire hemisphere.
    We face a critical moment for Venezuela's interim 
government as the Maduro regime seeks to consolidate a criminal 
dictatorship with a helping hand from Havana.
    This crisis directly affects U.S. national security 
interests and our geopolitical competitors. Russia and China 
and Iran seek to undermine American influence.
    Moreover, the people of Venezuela continue suffering grave 
human rights abuses, a humanitarian catastrophe worsened by the 
COVID-19 pandemic, and mass displacement across the hemisphere.
    As Venezuelans struggle, I should say, to survive and 
restore their democracy, legislative elections are scheduled 
this year.
    Not surprisingly, the Maduro regime has rigged every aspect 
of the electoral process, thereby ensuring increased 
instability and more widespread suffering. The evidence is 
already there.
    After two decades of U.S. investment in Colombia's 
security, we now see Colombian guerrillas operating openly 
across Venezuela in large swaths of ungoverned territory.
    They join a wide range of armed actors promoting and 
profiting from the drug trade, illegal gold mining, and human 
suffering.
    Most tragically, of course, is the daily suffering that 
Venezuelans endure. Femicide, sexual violence, and trafficking 
of Venezuelan women and girls are, reportedly, on the rise.
    Dramatic increases in maternal and infant mortality reflect 
the dire state of Venezuela's health system, and the World Food 
Program assessed in February that one-third of Venezuelans face 
moderate or severe food insecurity.
    Additionally, Maduro's brutal regime has perpetrated more 
state-sponsored murders--state-sponsored murders--than any 
Latin American government since the dirty wars of the 1970s and 
'80s.
    In the last 2 years, the U.N. High Commissioner for Human 
Rights has reported over 8,000 extrajudicial killings by 
Maduro's security forces as well as grotesque patterns of 
torture and rape.
    These conditions have forced more than 5.2 million 
Venezuelans to flee their country in search of protection and 
assistance.
    I traveled to Cucuta, Colombia, a year ago, where I heard 
heart-wrenching stories from individuals fleeing the 
humanitarian tragedy in Venezuela.
    With the COVID-19 pandemic and related economic downturn 
converging on the crisis of Venezuelan refugees and migrants, 
the United States must mobilize international partners to 
further expand assistance and protection for the Venezuelan 
people.
    If the current trajectory continues, more Venezuelans will 
be displaced from their homes than the number of Syrians 
displaced during that devastating nearly decade-long conflict.
    Yet, while other countries are generously hosting millions 
of Venezuelans, the Trump administration has ignored my 
repeated requests to grant Temporary Protected Status to some 
200,000 Venezuelans in the United States.
    It has turned away Venezuelan asylum seekers at our 
southern border, and that is absolutely unacceptable. The 
Administration must change course.
    Through my VERDAD Act last year, Democrats and Republicans, 
in concert with the Administration, united in our recognition 
of interim President Juan Guaido.
    However, in June, President Trump stated that he did not 
think this decision to recognize President Guaido was, ``very 
meaningful,'' sending the wrong signal to our allies and our 
adversaries.
    We must be purposeful and lead the formidable coalition we 
helped build to support President Guaido. So I expect to hear a 
strategy about how we will work with our partners to ensure 
that Maduro does not use fraudulent elections to strengthen his 
dictatorship.
    Moreover, with Maduro and his cronies facing charges in the 
United States for drug trafficking and graft, there should be 
no doubt about their criminal credentials. We are dealing with 
a massive law enforcement challenge in Venezuela.
    Never have so many in our hemisphere fallen victim to a 
cabal of criminals so willing to destroy their own country for 
the sole purpose of enriching themselves and avoiding justice.
    We must coordinate an international campaign to confront 
the regime's criminality, and I look forward to hearing from 
you, Special Representative, on what changes we will make to 
increase our chance of success in the next 6 months.
    And yes, I said changes. There has been bipartisan support 
for most of our sanctions and the $600 million in foreign 
assistance we have used for humanitarian aid.
    But Maduro remains entrenched in power and humanitarian 
access into Venezuela is extremely limited. We cannot continue 
on the same course and expect to achieve different results.
    I fear the Administration may very well have squandered a 
limited window of opportunity, crafted by valiant Venezuelans, 
and I hope it is not too late to open that window again.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Robert Menendez 
follows:]

             Prepared Statement of Senator Robert Menendez

    Thank you, Mr. Chairman, for working with me on this hearing. Mr. 
Abrams, you come before this committee at an urgent moment for 
Venezuela--one with implications for the United States and our entire 
hemisphere.
    We face a critical moment for Venezuela's Interim Government, as 
the Maduro regime seeks to consolidate a criminal dictatorship, with a 
helping hand from Havana. This crisis directly affects U.S. national 
security interests, and our geopolitical competitors--Russia and China 
and Iran--seek to undermine American influence.
    Moreover, the people of Venezuela continue suffering grave human 
rights abuses, a humanitarian catastrophe worsened by the COVID-19 
pandemic, and mass displacement across the hemisphere.
    As Venezuelans struggle to survive and restore their democracy, 
legislative elections are scheduled for this year. Not surprisingly, 
the Maduro regime has rigged every aspect of the electoral process, 
thereby ensuring increased instability and more widespread suffering. 
The evidence is already there.
    After two decades of U.S. investment in Colombia's security, we now 
see Colombian guerillas operating openly across Venezuela in large 
swaths of ungoverned territory. They join a wide range of armed actors 
profiting from the drug trade, illegal gold mining, and human 
trafficking.
    Most tragically, of course, is the daily suffering that Venezuelans 
endure. Femicide, sexual violence, and trafficking of Venezuelan women 
and girls are reportedly on the rise. Dramatic increases in maternal 
and infant mortality reflect the dire state of Venezuela's health 
system. And, the World Food Program assessed in February that one third 
of Venezuelans face moderate or severe food insecurity.
    Additionally, Maduro's brutal regime has perpetrated more state-
sponsored murders than any Latin American government since the dirty 
wars of the 1970s and 80s. In the last 2 years, the U.N. High 
Commissioner for Human Rights has reported over 8,000 extrajudicial 
killings by Maduro's security forces, as well as grotesque patterns of 
torture and rape.
    These conditions have forced more than 5.2 million Venezuelans to 
flee their country in search of protection and assistance. I traveled 
to Cucuta, Colombia a year ago, where I heard heart-wrenching stories 
from individuals fleeing the humanitarian tragedy in Venezuela.
    With the COVID-19 pandemic and related economic downturn converging 
on the crisis of Venezuelan refugees and migrants, the United States 
must mobilize international partners to further expand assistance and 
protection for the Venezuelan people. If the current trajectory 
continues, more Venezuelans will be displaced from their homes than the 
number of Syrians displaced during that devastating, nearly decade-long 
conflict.
    Yet, while other countries are generously hosting millions of 
Venezuelans, the Trump administration has ignored my repeated requests 
to grant Temporary Protected Status to some 200,000 Venezuelans in the 
United States. It has turned away Venezuelan asylum seekers at our 
southern border. This is absolutely unacceptable.
    The Administration must change course.
    Through my VERDAD Act last year, Democrats and Republicans, in 
concert with the Administration united in our recognition of Interim 
President Juan Guaido. However, in June, President Trump stated that he 
did not think this decision to recognize President Guaido was ``very 
meaningful''--sending the wrong signal to our allies and our 
adversaries.
    We must be purposeful and lead the formidable coalition we helped 
build to support President Guaido. So, I expect to hear a strategy 
about how we will work with our partners to ensure that Maduro doesn't 
use fraudulent elections to strengthen his dictatorship.
    Moreover, with Maduro and his cronies facing charges in the U.S. 
for drug trafficking and graft, there should be no doubt about their 
criminal credentials. We are dealing with a massive law enforcement 
challenge in Venezuela. Never have so many in our hemisphere fallen 
victim to a cabal of criminals so willing to destroy their own country 
for the sole purpose of enriching themselves and avoiding justice.
    We must coordinate an international campaign to confront the 
regime's criminality, and I look forward to hearing from Special 
Representative Abrams on what changes we will make to increase our 
chance of success in the next 6 months. Yes, changes.
    There has been bipartisan support for most of our sanctions and the 
$600 million in foreign assistance we have used for humanitarian aid. 
But, Maduro remains entrenched in power and humanitarian access into 
Venezuela is extremely limited.
    We cannot continue on the same course and expect to achieve 
different results. I fear the Administration has squandered a limited 
window of opportunity crafted by valiant Venezuelans. I hope it is not 
too late to open that window again.

    The Chairman. Thank you, Senator Menendez. Those remarks 
are well taken. I think out of all the things that are going on 
in the Congress today that divides us, probably nothing bring 
us together more than a sense that Maduro has to go and that we 
are united, if not universally, very close to universally in 
that effort. So we are anxious to hear what these witnesses 
have to say.
    Today, I am pleased to welcome to the committee U.S. 
Special Representative for Venezuela Elliott Abrams and Mr. 
Joshua Hodges, Senior Deputy Assistant Administrator for Latin 
America and the Caribbean at the U.S. Agency for International 
Development, USAID.
    Mr. Abrams is a scholar and experienced foreign policy 
expert. He has served in two administrations on the staff of 
Senators Henry Jackson and Dan Moynihan. He has written five 
books on American foreign policy and teaches on the subject at 
Georgetown University's Edmond A. Walsh School of Foreign 
Service.
    Mr. Hodges oversees USAID programs in Latin America and the 
Caribbean. He previously served on the staff of Congressman 
Mike Johnson and Senator David Vitter of Louisiana, at the 
Department of Energy's National Nuclear Security Administration 
and the National Security Council in the White House.
    We will start with Mr. Abrams.
    Mr. Abrams, the floor is yours.

 STATEMENT OF HON. ELLIOTT ABRAMS, SPECIAL REPRESENTATIVE FOR 
      VENEZUELA, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Abrams. Thank you, Chairman Risch, Ranking Member 
Menendez, and members of the committee----
    The Chairman. Your microphone is not on, Elliott. It is 
very complicated.
    [Laughter.]
    Mr. Abrams. Chairman Risch, Ranking Member Menendez, 
members of the committee, thank you for this opportunity to 
testify on our efforts in support of the Venezuelan people.
    This policy has, with broad bipartisan support, been 
successful in supporting the democratic opposition, maintaining 
a broad international coalition, and denying revenue to 
Maduro's brutal regime.
    But we have yet to see the convoking of free and fair 
presidential elections nor do we see the conditions that would 
permit such elections.
    In January 2019, the U.S. was the first country to 
recognize interim President Juan Guaido. Since then, he has 
secured the support of nearly 60 countries. We remain steadfast 
in our support for interim President Guaido.
    We have proposed a democratic transition framework for 
Venezuela as a path to establish a broadly acceptable 
transitional government to oversee free and fair presidential 
and parliamentary elections.
    We are prepared to work with all Venezuelans and with other 
nations to achieve this goal and to lift sanctions when the 
necessary conditions are met.
    I want to thank this committee and Congress for its support 
through legislation and funding. The U.S. is the single largest 
donor of humanitarian assistance for Venezuela.
    From 2017 to now, the U.S. has provided more than $856 
million to Venezuelans suffering inside Venezuela and in 
neighboring countries, and we should recognize those that have 
welcomed 5 million Venezuelans, especially Colombia, Peru, 
Ecuador for their continued support as well.
    Criminal dictatorships like Maduro's are hard to defeat. 
The Maduro regime's relentless attacks on dissidents and 
against Venezuela's last remaining democratic institution, the 
National Assembly, demonstrated its obsession with retaining 
power regardless of the cost to the nation and its people.
    In July, the U.N. High Commissioner for Human Rights, 
Michelle Bachelet, released two reports on human rights 
violations in Venezuela. She reported that Maduro and his thugs 
continue intimidation, repression, arbitrary detentions, 
torture, and murder.
    This includes 1,324 extrajudicial killings from January to 
May of this year. For more than 2 and a half years, the regime 
has unlawfully detained six U.S. oil executives: Tomeu Vadell, 
Alirio Zambrano, Jose Luis Zambrano, Gustavo Cardenas, Jorge 
Toledo, and Jose Angel Pereira.
    We were relieved to hear July 30th that Mr. Cardenas and 
Mr. Toledo were moved to house arrest. This is a positive first 
step and, of course, we hope for more.
    The regime also continues to detain nearly 400 political 
prisoners, including military officers, medical professionals, 
journalists, dissident Chavista Nicmer Evans, Guaido's chief of 
staff, Robert Marrero, National Assembly Deputies Juan 
Requesens, Gilber Caro, Ismael Leon, Renzo Prieto, and Antonio 
Geara, and labor rights activist Ruben Gonzalez.
    We remain concerned over foreign malign influence in 
Venezuela and the Maduro regime's collaboration with non-state 
armed groups such as the ELN and FARC.
    Illegal armed groups are forcibly recruiting vulnerable 
Venezuelan children into armed conflict, compelling many into 
forced labor. Cuba treats Venezuela as a colony, shipping food, 
medicine, diesel, and gasoline from Venezuela to Cuba, even as 
the Venezuelan people suffer shortages of all of them.
    Cuban security personnel surround Maduro. Cuban 
intelligence officers are embedded in the military. China helps 
the Maduro regime with cyber operations.
    Russian military aid and loans have helped the regime 
maintain its security forces, and now we are seeing a 
rekindling of the relationship with the world's worst state 
sponsor of terrorism, the Islamic Republic of Iran.
    Maduro's recent hijacking of the National Electoral Council 
and of the major democratic political parties foreshadow how 
the regime plans to take control of the National Assembly 
through fraudulent elections in December.
    On Sunday, 27 democratic political parties in Venezuela 
joined in unity to say they refuse to participate in that 
farce, and I am sure democracies around the world will also 
refuse to recognize such a fraud.
    We look forward to the day when free and fair elections are 
held, a new democratically-elected government is in place, U.S. 
sanctions can then be lifted.
    We look forward to restoring once close Venezuela-U.S. 
relations to helping Venezuelan migrants and refugees return to 
their beloved country and to seeing Venezuela's children share 
in the beauty and bountiful natural wealth of their country.
    Mr. Chairman, Senator Menendez, thank you for inviting me 
here today and for your continuing interest and the strong 
bipartisan support this committee has shown toward the struggle 
for freedom in Venezuela.
    I look forward to answering your questions.
    [The prepared statement of Mr. Abrams follows:]

                  Prepared Statement of Elliott Abrams

    Chairman Risch, Ranking Member Menendez, and Members of the 
Committee: Thank you for the opportunity to testify on our efforts in 
support of the Venezuelan people. The ongoing crisis and the defense of 
democracy in Venezuela remain key U.S. strategic priorities. This 
policy has, with broad bipartisan support, been successful in 
supporting the democratic opposition, maintaining a broad international 
coalition, and denying revenue to Maduro's brutal regime, but we have 
yet to see the convoking of free and fair presidential elections, nor 
do we see the conditions that would permit such elections.
    In January 2019, the United States was the first country to 
recognize interim President Juan Guaido, and since then we have secured 
the support of nearly 60 countries, the OAS, and the Inter-American 
Development Bank in recognizing him as the constitutional president of 
Venezuela. The United States also joined other countries to invoke the 
Rio Treaty, a collective security agreement, which resulted in a 
resolution mandating travel restrictions for 29 regime collaborators. 
This is the first time in more than 50 years the Rio Treaty has been 
used to impose such measures. U.S. sanctions continue to deny the 
regime access to spoils, and we have implemented visa restrictions and 
revoked visas for over one thousand regime officials and their family 
members. These measures are intended to increase pressure on the Maduro 
regime and its affiliates to agree to a broadly acceptable political 
transition.
    Criminal dictatorships like Maduro's are hard to defeat. The Maduro 
regime's relentless attacks on dissidents and against Venezuela's last 
remaining democratic institution, the National Assembly, demonstrate 
its obsession with retaining power regardless of the cost to the nation 
and its people.
    In July, the U.N. High Commissioner for Human Rights Michelle 
Bachelet released two updated reports on human rights violations in 
Venezuela. She reported that Maduro and his thugs continue committing 
the most serious violations and abuses of human rights through systemic 
intimidation, repression, arbitrary detentions, torture, and murder. 
This includes 1,324 extrajudicial killings from January through May of 
this year. The reports also focused on how the regime is twisting the 
rule of law and presiding over a violent campaign of repression in the 
Arco Minero, Venezuela's mining belt. This region is increasingly a 
source of revenue for the regime as U.S. sanctions effectively limit 
income from more traditional sources, and Maduro's mafias are using 
violence to grab every last ounce of gold.
    The regime also continues to detain nearly 400 political prisoners, 
including military officers, medical professionals, journalists, and 
dissident Chavista Nicmer Evans, Guaido's Chief of Staff Roberto 
Marrero, and National Assembly deputies Juan Requesens, Gilber Caro, 
Ismael Leon, Renzo Prieto, and Antonio Geara. Even after a series of 
health crises during detention, the regime continues to detain labor 
rights activist Ruben Gonzalez.
    For more than 2 and a half years, the regime has unlawfully 
detained six U.S. oil executives--Tomeu Vadell, Alirio Zambrano, Jose 
Luis Zambrano, Gustavo Cardenas, Jorge Toledo, and Jose Angel Pereira. 
We were relieved to hear July 30 that Gustavo Cardenas and Jorge Toledo 
were released from prison and granted house arrest in Venezuela. This 
is a positive first step and of course we hope for more.
    The regime's repressive practices also have directly worsened the 
COVID-19 pandemic in Venezuela. We have countless examples of ongoing 
regime intimidation of doctors and medical workers fighting to counter 
the spread of COVID-19. The regime has arrested nearly a dozen 
independent journalists and respected medical providers who have 
attempted to report suppression and manipulation of COVID-19 case data 
or who voiced concern with the regime's negligent response to the 
pandemic. We are concerned by the regime's criminalization of returning 
refugees and the reports of the shameful conditions of their 
quarantine.
    Venezuela's Maduro-made crisis has led to serious humanitarian 
consequences which are well-known and documented; and, along with 
Congress, we are deeply concerned about the human cost of his regime's 
mismanagement, corruption, and deliberate abuse of the population. 
Venezuela's health system, infrastructure, and social services are 
collapsing. Decades-long economic mismanagement and neglect of 
infrastructure while looting state resources have led to the collapse 
of nearly every sector of the economy. Crude production has fallen to 
the lowest point in nearly eight decades to under 400,000 barrels per 
day. The World Food Program (WFP) reported this year that 9.3 million 
Venezuelans are moderately or severely malnourished. The recent 
National Survey of Living Conditions (ENCOVI) in Venezuela stated 
children born in Venezuela since 2015 are likely to have a 3.7 year 
shorter life span than official projections, and infant mortality rates 
have regressed 30-35 years. All of these factors have forced more than 
5 million Venezuelans to flee in search of a better life outside of 
Venezuela and away from Maduro's man-made disaster.
    I want to thank Congress for its support through legislation and 
funding. The United States is the single largest donor of humanitarian 
assistance for the Venezuela regional crisis. From 2017 to today, the 
United States has provided more than $856 million in humanitarian and 
development aid, including nearly $611 million in humanitarian 
assistance, to Venezuelans suffering inside Venezuela and across 17 
neighboring countries, supported by a recent commitment of $13.7 
million in COVID-19 specific support inside Venezuela. We maintain 
close cooperation with U.N. agencies and NGOs that are committed to 
providing lifesaving resources to Venezuelans. We also recognize the 
neighboring countries that have welcomed so many Venezuelans, 
especially Colombia, Peru, and Ecuador, for their continued support as 
well. The United States will continue to call upon other donors to make 
or increase contributions to help address the crisis.
    We have taken significant steps to address Maduro's use of 
narcotics as a financial lifeline for his illegitimate regime. On April 
1, President Donald Trump launched an historic counternarcotics 
operation--deploying additional military and law enforcement assets to 
the Caribbean and Eastern Pacific--to disrupt the flow of dangerous 
drugs to the United States. The narco-traffickers include the 
illegitimate regime of Nicolas Maduro. The enhanced operation is a 
``whole of government'' effort that has led to the disruption and 
seizure of over 100 metric tons of cocaine and marijuana. One thousand 
traffickers have been arrested over the past several months. This 
operation has cost the cartels and the Maduro regime over $3 billion in 
revenue.
    We remain concerned over foreign malign influence in Venezuela and 
the Maduro regime's collaboration with nefarious non-state armed 
groups. Cuba treats Venezuela as a colony shipping food, medicine, 
diesel, and gasoline from Venezuela to Cuba even as the Venezuelan 
people suffer shortages of every single one of them. Cuban security 
personnel surround Maduro, and Cuban intelligence officers are embedded 
in the military. China works with the Maduro regime to refine digital 
authoritarianism, helping the regime with cyber operations. Russian 
military aid and loans have helped the regime maintain its security 
forces and thus its provision of safe haven in Venezuela to FARC 
dissident and ELN terrorists. And now we are seeing a re-kindling of a 
relationship with the world's worst State sponsor of terrorism, the 
Islamic Republic of Iran.
                             looking ahead
    Maduro's recent hijacking of the National Electoral Council and of 
the major independent political parties foreshadow how the regime plans 
to take control of the National Assembly through fraudulent elections 
in December. We are supporting the opposition as they consider a 
concerted response, and we remain steadfast in our support for interim 
President Guaido and a resolution to Venezuela's crisis via a broadly 
acceptable transitional government organizing free and fair 
presidential elections.
    Free and fair presidential elections are required for Venezuela to 
regain its democracy and prosperity peacefully. The United States will 
recognize the results of a free and fair election, no matter which 
party wins; what we oppose is the abuse of state power that enables one 
party to rule indefinitely regardless of the will of the people. We 
have proposed a Democratic Transition Framework for Venezuela as a path 
to establish a broadly acceptable transitional government to oversee 
free and fair presidential and parliamentary elections. We are prepared 
to work with all Venezuelans and with other nations to achieve this 
goal, and are prepared to lift sanctions when the necessary conditions 
are met.
    In conclusion, Mr. Chairman and Ranking Member, the Maduro regime 
has survived by relying on classic autocratic tools coupled with its 
callousness and criminality. This has only strengthened our resolve, 
and the resolve of other democratic states, to see Venezuela once again 
become a free and prosperous nation. Until this objective is achieved, 
our pressure will continue and will increase. We look forward to the 
day when free and fair elections are held, a new democratically-elected 
government is in place, and U.S. sanctions can be lifted. We look 
forward to restoring once-close Venezuela-U.S. relations, to helping 
Venezuelan migrants and refugees return to their beloved country, and 
to seeing Venezuela's children share in the beauty and bountiful 
natural wealth of their country.
    Mr. Chairman, Ranking Member, thank you for inviting me here today 
and thank you for the continuing interest and the strong bipartisan 
support this Committee has shown toward the struggle for freedom in 
Venezuela. I look forward to answering any questions you may have.

    The Chairman. Thank you, Mr. Abrams.
    Mr. Hodges.

      STATEMENT OF JOSHUA HODGES, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR FOR LATIN AMERICA AND THE CARIBBEAN, U.S. AGENCY 
         FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Hodges. Chairman Risch, Ranking Member Menendez, and 
distinguished members of the committee, thank you for the 
opportunity and honor to be here to testify on behalf of USAID. 
We are grateful for your bipartisan support for the response to 
the Venezuela regional crisis.
    Eighteen months ago, the Trump administration recognized 
Juan Guaido as the legitimate and legal interim president of 
Venezuela in accordance with the Venezuelan constitution.
    As you know, this crisis has been manufactured by an 
inability to govern and rampant corruption, which has resulted 
in an economic collapse with severe humanitarian consequences 
and a culture of repression that the regime continues to use to 
jail, torture, and even murder the Venezuelan people.
    Today, the Guaido interim government and National Assembly 
continue to push forward, despite very challenging 
circumstances, including the humanitarian and economic crisis, 
the illegitimate Maduro regime's radical oppression and, most 
recently, COVID-19.
    Because of these dire realities, more than 5.2 million 
Venezuelans have left home and relocated to neighboring 
countries, extending the crisis across borders.
    To address this crisis inside Venezuela and throughout the 
region, the United States government interagency process is 
providing substantial coordinated humanitarian and development 
assistance.
    Inside Venezuela, USAID's humanitarian assistance is saving 
lives through health care that stems the spread of infectious 
disease, meals for vulnerable families, and vital water, 
sanitation and hygiene supplies.
    A few tangible examples of this assistance includes serving 
more than 1.4 million hot meals to vulnerable Venezuelans and 
delivering enough medical supplies to health facilities to help 
160,000 people.
    In addition to the previous existing challenges, COVID-19 
is exacerbating an already dire situation inside Venezuela. In 
response to the pandemic, USAID is providing COVID-19-related 
emergency assistance inside Venezuela and throughout the 
region.
    While our efforts are making an impact, Maduro has stood in 
the way of allowing more help to Venezuelans in their time of 
need by creating numerous obstacles and barriers for 
international NGOs.
    Humanitarian organizations face constant harassment from 
security personnel affiliated with Maduro and the illegitimate 
regime continues to impede international expert staff from 
obtaining visas and registry in certain organizations.
    Let me be clear. USAID condemns any efforts to intimidate 
or threaten humanitarian workers who are seeking to save lives.
    Throughout the region, USAID's priority is to support 
communities that are generously hosting Venezuelans in their 
time of great need, especially in Brazil, Colombia, Ecuador, 
and Peru.
    We are aiming to provide approximately 943,000 Venezuelan 
refugees and migrants in these countries with food assistance, 
health care, and clean water.
    While humanitarian assistance is saving lives, the agency 
recognizes that a balanced mix of medium and long-term 
development assistance is also needed.
    Our regional development programming is aligned to help the 
receiving host country governments address areas impacted by 
the Venezuelan migration such as education systems, health 
care, economic development, and vocational support as well as 
government capacity building.
    Back inside Venezuela, we are using development assistance 
to support the interim government and the National Assembly 
with technical training, staffing support, equipment, and 
communications efforts.
    USAID support bolsters the interim government's abilities 
to effectively operate and interact with their constituents. 
Despite the increased repression from the illegitimate regime, 
our assistance has enabled increased participation with 
legitimate officials.
    Our commitment to democracy and the rule of law is 
essential to our engagement in the hemisphere. In addition to 
the Guaido administration and National Assembly, USAID strongly 
supports those who defend human rights and serve as civil 
society watchdogs.
    Our help each year to dozens of NGOs has been critical to 
investigating and then document rampant corruption, flagrant 
electoral fraud, and wide-ranging human rights abuses.
    With our support, independent news outlets are able to 
better operate so they can share information with Venezuelans 
through online reporting, radio and other forms of 
communications.
    USAID is also helping democratic forces plan for the day 
the Maduro regime gives way to freedom and authentic change can 
take place.
    When change does occur, funding through our bilateral 
agreement will position us to be ready to expand our work 
quickly into other sectors.
    For the time being, though, the effort continues to support 
the people of Venezuela, the Guaido administration, the 
National Assembly, scores of NGOs, and activists who bravely 
continue their struggle, despite repression and despite the 
very difficult situations on the ground.
    One critical step must be taken for a free and prosperous 
Venezuela. The world must continue to pressure Maduro to 
relinquish control and allow for Democratic change. This 
includes truly free elections, not the rigged so-called 
elections Maduro is planning for in December.
    Venezuelans have suffered long enough under the brutality 
of Nicolas Maduro. We look forward to the day when we can 
celebrate with all Venezuelans as they meet their potential as 
a free, prosperous, and democratic society, and thank you today 
for the invitation to testify.
    I look forward to your questions.
    [The prepared statement of Mr. Hodges follows:]

                  Prepared Statement of Joshua Hodges

                              introduction
    Chairman Risch, Ranking Member Menendez, and Distinguished Members 
of the Senate Foreign Relations Committee: Thank you for the 
opportunity to testify on behalf of the U.S. Agency for International 
Development (USAID). It is an honor to be here with you today. USAID is 
grateful for your ongoing, bipartisan support for our work in Latin 
America and the Caribbean, and especially our response to the Venezuela 
regional crisis.
    Eighteen months ago, the Trump administration, along with nearly 60 
other governments around the globe, recognized Juan Guaido as the 
legitimate and legal Interim President of the Bolivarian Republic of 
Venezuela, in accordance with the Venezuelan Constitution. President 
Trump recognized Guaido's interim presidency on January 23, 2019. The 
United States and the international community based our swift 
recognition of Guaido upon respect for the rule of law.
    Since 2019, USAID has coordinated with Interim President Guaido to 
implement democracy and governance programs, to support the interim 
government and the National Assembly structurally operate as best as 
possible under these challenging circumstances. In 2019, we formally 
established our cooperation when then USAID Administrator Mark Green 
signed a Development Objective Agreement (DOAG) with the Interim 
Government. However, USAID began our support for democracy in Venezuela 
long before this Agreement. For the past several years, with your 
bipartisan support, we have been assisting human-rights defenders, 
independent media, and civil society inside Venezuela. The United 
States, along with several other governments, has provided technical 
and financial support to the National Assembly, which helps this body 
remain operational as the sole source of legitimate, democratic, 
citizen-responsive governance in Venezuela.
    Since January 2019, Interim President Guaido and other democratic 
actors have faced innumerable challenges in their fight for freedom. 
Compounding factors that have complicated their struggle are the depths 
of the Maduro-made humanitarian and economic crisis; the radical steps 
the illegitimate regime has taken to oppress the Venezuelan people; 
and, most recently, the COVID-19 pandemic. Nicolas Maduro's use of 
repressive tactics and assistance from malign foreign actors further 
complicate the situation. This chaos has eroded Venezuelan citizens' 
ability to feel safe when leaving their homes to organize and stand up 
to the injustices and corruption of the illegitimate regime. A weak and 
isolated population is precisely what the regime needs for it to appear 
that Venezuelans have lost their will or interest in change. As I am 
sure the Committee will agree, based on your own engagement with them, 
the Venezuelan people have neither lost their will nor desire for 
freedom and prosperity. Millions of brave men and women in Venezuela 
continue to demand and advocate for transparent elections, a respect 
for human rights, and a restoration of democracy.
    This prolonged crisis has been manufactured by Maduro's inability 
to govern and his corruption, which has resulted in an economic 
collapse with severe humanitarian consequences and the culture of 
repression that the regime uses to jail, torture, and even murder the 
Venezuelan people. This situation, and other sinister steps taken by 
the illegitimate Maduro regime to undermine democracy and rule of law, 
have prolonged the effort needed for a democratic transition.
    Because of the dire realities within Venezuela, more than 5 million 
Venezuelans have fled the tyranny and deprivation in their homeland--
mostly into neighboring Andean countries like the Republics of Colombia 
and Peru. These desperate people have left their homes, families, and 
communities behind, often with nothing but the clothes on their bodies. 
The United States is cognizant of the burden this places on our 
hemispheric allies and host communities, and the emotional burden it 
has on those who have fled and the family members they left in 
Venezuela. COVID-19 has only complicated this tragic situation. Until 
Maduro departs, many of these Venezuelans either will not or cannot 
return home; their country will need them to rebuild as a democratic 
and prosperous state.
humanitarian assistance: addressing maduro-made crisis inside venezuela 
                         and across the region
    Mr. Chairman, I know this Committee cares deeply about the 
humanitarian crisis that is facing millions of Venezuelans, so I would 
like to talk specifically about our response. Inside Venezuela, USAID 
has provided nearly $44 million in humanitarian assistance since 2017. 
With this funding, our partners have served more than 1.4 million hot 
meals to vulnerable Venezuelans--especially women and children--across 
nearly 100 community kitchens and schools. Our assistance has helped 
save lives through primary health care, immunizations against 
infectious diseases, treatment for malaria, and training health care 
workers. We have also brought safe drinking water to health facilities 
and schools, which has benefited more than 7,000 Venezuelans. USAID has 
helped provide women and children with safe spaces and protection 
against violence and exploitation, as well as coordinated with the 
humanitarian community to improve the effectiveness of the response to 
the economic collapse in Venezuela.
    Humanitarian efforts in Venezuela face many challenges because of 
the ongoing repression, obstruction, and intimidation tactics of the 
regime. Maduro has created obstacles for international non-governmental 
organizations (NGOs) that are seeking to provide assistance and reach 
places in need, such as impeding them from legally registering inside 
Venezuela and preventing their employees from obtaining visas. These 
restraints, coupled with NGOs' ongoing concerns for their safety to 
operate and logistical impediments, hinder the ability to respond at a 
scale that matches the needs created by this Maduro-made economic and 
political crisis. Another impediment to relief efforts is the continued 
harassment of humanitarian organizations and health workers by security 
personnel affiliated with the illegitimate Maduro regime.
    USAID condemns any efforts to intimidate or threaten humanitarians 
who are working to save lives, and we know this Committee strongly 
supports us on this front. In Venezuela and everywhere else in the 
world, humanitarian organizations must have full and unhindered access 
to reach people in need.
    Despite the obstacles to applying full-scale operations with 
qualified international staff, USAID continues to provide humanitarian 
assistance where possible. However, humanitarian efforts, while the 
right thing to do, are not a solution that will end the crisis in 
Venezuela. As the members of this Committee are aware, humanitarian 
assistance cannot, and is not intended to, address the root causes of 
Venezuela's instability and desperation. The only way to address these 
root causes is through political and economic change.
    As this Committee knows, the U.S. Government has made it a 
hemispheric, and even global, priority to support the communities that 
are generously hosting Venezuelans in their time of need. We understand 
that responding to this crisis is no easy task, and has put our 
neighbors under great strain. The influx of Venezuelans has especially 
affected countries across South America. To help address their needs, 
since Fiscal Year 2018 USAID has provided nearly $297 million in 
humanitarian funding in Brazil, Colombia, Ecuador, and Peru and 
regionally, excluding coronavirus supplemental funding. Our assistance 
on the humanitarian side has included nutritious meals, health 
assistance, and clean water for approximately 943,000 Venezuelan 
refugees and migrants.
    The U.S. Government is working throughout the region to combat 
efforts that would seek to undermine international or regional support 
for Venezuelans who have had to flee their homeland because of the 
crisis caused by Maduro. Through close coordination, U.S. Department of 
State and USAID's combined humanitarian assistance has been vital in 
meeting life saving needs and supporting protection for those fleeing 
Venezuela. At the same time, neighboring countries, especially 
Colombia, Peru, and Ecuador, have welcomed Venezuelans, and State and 
USAID share the goal to work to ensure that other donors to provide new 
or increased assistance to address this regional crisis.
    In addition to the pre-existing challenges, COVID-19 is 
exacerbating an already-difficult humanitarian situation, both inside 
Venezuela and across the region. More than 4.2 million cases of the 
disease have been reported in Latin America and Caribbean to date. That 
number, which we believe is likely low because of underreporting in 
places like Venezuela, continues to grow. In Venezuela and the rest of 
the region, economic distress, mass school closures, disruption of 
access to regular health care, and significant increases in gender-
based violence have been compounded by the pandemic. As a result, many 
Venezuelans who have fled to neighboring countries are concerned about 
how they will afford rent, food, and other basic necessities during 
lockdowns related to containing the novel coronavirus, and more people 
than ever before are in need of humanitarian support to make ends meet. 
This is in addition to other challenges, such as lack of access to 
legal status. Also, to address the combined challenges presented by 
COVID-19 and the Venezuela regional crisis, the U.S. Government's 
partners continuously are examining the impact of our existing 
programming to help ensure Venezuelans have the resources they need.
    Due to job loss and general familial concerns during the COVID-19 
pandemic, about 100,000 Venezuelans have made the tough choice to 
return to Venezuela, and our Department of State and USAID humanitarian 
partners have scaled up food, shelter, health, and sanitation 
assistance to help these Venezuelans on the move, as they face real 
vulnerabilities while in transit across borders. We are also working 
with our partners inside Venezuela to provide assistance to the COVID-
19 pandemic. USAID and our partners have distributed nearly 4,500 
hygiene kits and supplied personal protective equipment to 15 health 
facilities to prevent the spread of the virus.
 development assistance: promoting democracy and addressing long-term 
                               challenges
    As we monitor and respond to the immediate humanitarian needs of 
Venezuelans who have fled the chaos in their home country as well as 
the countries and communities that are hosting them, USAID recognizes 
that this prolonged regional crisis requires a balanced mix of medium- 
and long-term development assistance. In Colombia, Peru, the Federative 
Republic of Brazil, and the Republic of Ecuador, we are working 
alongside other parts of the U.S. Government with a variety of 
partners, such as host-country governments, NGOs, civil society, and 
faith-based organizations, to help communities absorb the influx of 
vulnerable Venezuelans. In total, USAID has invested more than $102 
million in the region to address these longer-term needs since Fiscal 
Year 2017. Development initiatives in parts of the region include 
strengthening primary education and health care; improving government 
agencies' capacity to manage migration and socioeconomic integration; 
protecting human rights; expanding access to justice; and offering 
vocational training, linked to employment and entrepreneurship 
opportunities in the private sector.
    Moving back to Venezuela, President Guaido and his Interim 
Government, the democratically elected National Assembly, and civil 
society continue to push for a peaceful democratic transition. USAID 
provides direct technical training, staffing support, equipment, and 
communications support to the Interim Government and the National 
Assembly. Our technical support to the Interim Government has bolstered 
its ability to have administrative infrastructure, media operations, 
planning systems, and improved strategic decision-making. Additionally, 
our support to the National Assembly has ensured that its important and 
legitimate legislative work continues. Our funding has enabled 101 
Deputies and 60 Alternate Deputies to participate in plenary sessions 
despite the increased repression from the illegitimate regime. A total 
of 79 Deputies and 15 Alternate Deputies from 10 democratic political 
parties have taken part in other initiatives, such as international 
policy exchanges, training, in-person events, and social-media 
communications efforts. Through these initiatives, the members of the 
National Assembly have increased their visibility with Venezuelan 
citizens, and their ability to engage with their local constituents. 
For example, with USAID`s funding, National Assembly Deputies have held 
almost 800 constituent-engagement fora to promote dialogue with civil 
society. The members of the National Assembly have been subject to 
constant harassment and undermining, and our programming helps them 
overcome challenges, such finding meeting places, providing alternative 
communications platforms, or providing supplies the regime has 
illegally seized.
    USAID also supports Venezuelan citizens who continue to assert 
their rights and maintain a democratic voice in the face of 
dictatorship. For years, the Agency has empowered Venezuelan human-
rights defenders, civil-society organizations, and independent media 
who expose and document rampant corruption, flagrant electoral fraud, 
and wide-ranging abuses in the country. Our funding helps these groups 
define, discuss, and advocate for a free and democratic Venezuela. Our 
$128 million in development assistance inside Venezuela includes the 
more than $98 million in our 2019 bilateral agreement, which is 
critical to our work in the country. Not only does the DOAG allow us to 
continue to finance our current activities, but it positions us to be 
ready to expand our work quickly into other sectors once the democratic 
transition occurs.
    To bring that day closer, our current efforts bring accurate and 
unbiased news and information to the people of Venezuela. To help 18 
local civil-society organizations improve their reporting on human-
rights abuses, USAID has funded the training of more than 2,300 people 
on the proper protocols for investigating, documenting, and reporting 
violations. This investment resulted in the production of more than 570 
documented, verifiable reports during Fiscal Year (FY) 2019. With this 
documentation and evidence, these organizations are able to share 
essential information with the rest of the world.
    To raise awareness of the Maduro's kleptocracy corruption and 
unconstitutional actions, the conditions of the failing Venezuelan 
state, and the environmental and human catastrophe caused by regime-
sponsored illegal gold mining in the Arco Minero in the South of the 
country, USAID-funded civil-society organizations produced and 
distributed almost 950 reports, analyses, and videos in FY 2019. 
Additionally, these groups leveraged the power of the Internet to push 
out vital information. Collectively, their websites received more than 
672,500 unique visitors in FY 2019 alone, which increases widespread 
awareness of the tragic situation in Venezuela.
    Those who are pushing for democratic change and citizen-responsive 
governance face dangerous obstacles at the hands of the illegitimate 
Maduro regime and the nefarious actors that are keeping him in power. 
Malign actors such as Cuba, the Russian Federation, the People's 
Republic of China, and the Islamic Republic of Iran actively are 
propping up the corrupt Maduro regime and encouraging efforts to stifle 
the Venezuelan people by spreading their own disinformation and lending 
best practices in how to oppress democracy. The United States is 
committed to working with our partners to stop these cynical attempts 
to erode democratic and economic progress. USAID will continue to 
promote and demonstrate democratic values in Venezuela and the region 
to advance a free, peaceful, and prosperous Hemisphere and world.
              vision for the future: democratic transition
    The United States continues to support the people of Venezuela in 
their quest for freedom and prosperity even as we address the ongoing, 
man-made humanitarian, economic, and political crisis, and, of course, 
COVID-19. We know this Committee shares these goals. Venezuelans are 
appreciative of this shared unity and support, from the Administration 
and Congress--they remember the active participation of many Members of 
Congress and staff who have made numerous visits to Colombia, Brazil, 
Peru, and other countries to see first-hand the effect of the crisis on 
Venezuelans who have fled the chaos in their homeland.
    With the support of Congress, USAID will continue to support the 
Venezuelan people as they work hard to steer their country back on a 
path to prosperity and create the opportunities, dignity, and stability 
that they deserve. For the sake of the Venezuelan people, the world 
must continue to pressure Maduro to relinquish control and allow for 
democratic change. One step in the process will be truly free 
elections--not the rigged so-called ``elections'' Maduro is planning 
for December. Far from solving the political crisis, this process will 
end up aggravating the current political and humanitarian crisis in 
Venezuela. Like the fraudulent vote in 2018, the regime plans to hold 
the December ``elections'' under false pretenses and without any 
respect for Venezuelan rules and regulations, and seeks to undermine 
the last truly democratic voice of the people.
    When the illegitimate Maduro regime has given way to freedom and 
authentic change, funding through our bilateral agreement will be able 
to finance recovery efforts led by a democratically elected Venezuelan 
administration. USAID will be a key part of the U.S. Government's 
support to the new democratic Government of Venezuela as it works to 
restore a crumbling health sector and shattered economy, and 
reinvigorate critical work in agriculture to rebuild the private-sector 
production and distribution of food in Venezuela. We already are 
supporting the construction of ideas and discussions about those 
visions and the change that is needed, partly through our support to 
the Interim Government's recovery strategy, Plan Pais.
                               conclusion
    The Venezuelan people deserve to live in peace and prosperity, and 
we are grateful for Congress' bipartisan support for this endeavor. The 
Interim Government of Juan Guaido and the National Assembly are working 
very hard--even under the added hardship of the pandemic--for a 
peaceful transition to democracy that will enable Venezuelans to 
rebuild their country.
    For too long, Venezuelans have suffered at the hands of the late 
Hugo Chavez and now Nicolas Maduro and their kleptocracy. I look 
forward to the day when we can celebrate with all Venezuelans as they 
meet their potential as a free, prosperous, and democratic society that 
is once again a leader in the region and the world.
    Thank you for the invitation to testify before you. I look forward 
to taking your questions.

    The Chairman. Thank you very much. We will do a round of 
questioning now. I am going to start, briefly, and then turn it 
over to Senator Menendez.
    You mentioned these elections that are coming up. Mr. 
Abrams, this question is for you. It is my understanding that 
Maduro has taken a page out of the Iranians' book where they 
have an election commission that decides who can run and who 
cannot run.
    Anything that happens like that, of course, immediately 
takes away any legitimacy that the election would have, and I 
think it is important that this be highlighted and that the 
people understand this.
    I mean, if you can pick your opponent or opponents there is 
no question how the election is going to come out.
    Your thoughts?
    Mr. Abrams. Mr. Chairman, I agree with that. They have 
prevented a large number of people from running. They have 
taken over several of the largest political parties, simply 
replaced the leadership of the parties and given all the 
parties' assets--offices, the parties' symbols--to people that 
their regime chooses.
    They are going to hold this election, they say, December 
6th. There are today in Venezuela zero voting machines. Zero.
    So how they are going to do this, you know, I think defies 
comprehension and, like the 2018 presidential election, this is 
going to be another fraud.
    The Chairman. Thanks. I think that is critical for 
everybody to understand, and I also think that we need to 
underscore that this is not an election at all. It is just a 
facade that has no legal or practical authority whatsoever.
    Secondly, you did not mention the military's role in all of 
this. We all know there is a robust military in Venezuela. I am 
told there are 3,500 generals. I am not exactly sure how you 
discipline a military that has got 3,500 generals.
    But your thoughts on where they are and where they are 
going?
    Mr. Abrams. There are more generals in Venezuela than in 
all the NATO countries put together.
    [Laughter.]
    Mr. Abrams. I think there is a lot of worry in many ranks 
of the military about the condition of the country. You know, 
you are a soldier. You are an officer. You have a mother and 
father, aunts, uncles, cousins. You see how they are living. 
You know what is happening to the country.
    But you are being spied on by these thousands of Cuban 
intelligence agents, and at the very top you have got a lot of 
people who are quite corrupt and are profiting from this 
regime.
    So the military has at least up to now been unwilling to 
separate itself at all from what the regime is doing to the 
country, and it is tragic because a democratic Venezuela is 
going to need a professional military. They have a lot of 
security problems that they are going to need to deal with.
    Our hope, of course, would be that they would try to 
reestablish the honor of the military and distance themselves 
from the crimes of this regime.
    The Chairman. Thank you much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Abrams, on Sunday, Venezuela's opposition coalition 
announced that it will not participate in Maduro's fraudulent 
undemocratic legislative elections.
    Yet, this decision carries implications for Venezuela's 
currently democratically-elected National Assembly and the 
government of interim President Juan Guaido.
    Venezuela's beleaguered constitution, to the degree that it 
still exists under Maduro's dictatorship, calls for a new 
National Assembly to be seated the first week of January 2021.
    So I am deeply concerned that Maduro will use the moment to 
fully consolidate his criminal dictatorship in Venezuela.
    Given the opposition's decision not to participate in 
Maduro's fraudulent legislative elections, how will this impact 
the interim government in the first week of January when there 
is supposed to be a new National Assembly? What is the 
implications for U.S. policy and our recognition of the Guaido 
government?
    Mr. Abrams. Thanks, Senator.
    Juan Guaido occupies the office of interim president 
because it was vacant as a result of the May 2018 corrupt and 
fraudulent presidential elections.
    In our view, nothing changes on January 5th with respect to 
Juan Guaido. That office of the presidency is still vacant 
because of the 2018 election.
    It cannot be that Maduro can improve his situation legally 
or practically by holding another corrupt and fraudulent 
election.
    So in our view, the constitutional president of Venezuela 
today and after January 5th, 2021, is Juan Guaido, and the 
National Assembly that has been meeting until about, I guess, 
about March is not going to be able to meet.
    I think you can expect that if they tried to meet, 
everybody in it would be arrested by this regime.
    So I do think that there is the danger that Maduro is going 
to be able to shut down the operations of any kind of 
independent National Assembly. But he will not change the legal 
status, I think, for many, many countries around the world and 
especially for us.
    Senator Menendez. Well, let me ask you about that. What 
efforts are we taking with our international partners to push 
both against Maduro's undemocratic elections and then their 
continuing recognition of Guaido after January, assuming this 
plays out the way we envision it?
    Mr. Abrams. Well, on the question of recognition of Guaido 
and on the recognition of this fraudulent parliamentary 
election, we have been discussing this with lots of partners.
    There are about 60 countries that have recognized Guaido 
and I do expect that all of them, and we will be in touch with 
any we have not been yet, will continue to recognize him and 
will not recognize this fraudulent election.
    Senator Menendez. Well, I hope that there is a more robust 
engagement with our international partners because my personal 
sense of conversations I have had is that it is framed, and I 
think we can ill afford that at the end of the day.
    Let me turn to illegal mining and what I call blood gold. 
As Venezuela crises deteriorates, there is growing evidence 
that violent groups are competing for control of the country's 
mineral resources, which has resulted in a boom of illegal gold 
mining.
    That blood gold industry is destroying vast areas of the 
Amazon rain forest, fueling human rights abuses, particularly 
among indigenous populations, and generating illicit income for 
illegal armed groups that threaten the stability of the country 
and the region.
    What specific steps is the United States taking along with 
other international actors to ensure that companies that 
purchase, sell, and trade gold that are being extracted in this 
way are following regulations and not unwittingly supporting 
illegal gold mining operations in Venezuela?
    Mr. Abrams. Senator, there is more illegal mining, and the 
July 15th report of the U.N. High Commission for Human Rights 
has a whole section on the Arco Minero.
    What we have been doing is following every single case we 
can find of the shipment of gold out of Venezuela and the 
purchase of gold by anybody, and as we find it we go after both 
the country and the company.
    And in a number of cases we have gone to governments and 
said, this is happening in your territory and you have got to 
prevent it, and we have been successful and we find, for 
example, people doing this last year have now stopped.
    But there is more of it now, and so we are stepping up our 
activities, we being the State Department and the Treasury 
Department, to go after every single case of this we find.
    Senator Menendez. Well, I would be interested to know if 
you need any other legislative or regulatory assistance to do 
this because, obviously, a lot is getting out and the country's 
national patrimony is being used in a way that is so corrupt 
and so pervasive against its own people.
    A final question, if I may, Mr. Chairman.
    Does the Trump administration have the authority to grant 
TPS to eligible Venezuelans?
    Mr. Abrams. The authority, yes.
    Senator Menendez. Do you agree that it would not be safe to 
deport Venezuelans back to Maduro's dictatorship at this point 
in time?
    Mr. Abrams. Yes, and we are not doing that.
    Senator Menendez. So then why has not the president 
designated Venezuela for TPS?
    Mr. Abrams. I think the answer to that question is in court 
decisions that have, in essence, removed the T. That is, that 
it seems irreversible now, and I think that makes for some 
reluctance to do it.
    So what would be better----
    Senator Menendez. I do not think court decisions can 
undermine the statutory realities of TPS. It depends upon how 
one undoes TPS.
    So it just seems to me that we applaud Colombia, we applaud 
Ecuador, we applaud all these countries that have taken 
millions of people, and we cannot even give a temporary 
protected status to those Venezuelans who are already here.
    That is not leadership. It is not sending a global message 
that what we ask others to do we are willing to do ourselves.
    Mr. Abrams. Well, we are not deporting Venezuelans back to 
Venezuela, Senator.
    Senator Menendez. Well, I am glad to hear that. But at the 
end of the day, they are in an indefinite limbo in their lives 
here.
    There is no reason for that when you have a process that 
can give you a temporary protected status, give you a pathway 
forward to regularize your life while you are waiting for the 
moment to return to your country.
    I just do not get it. The aversion to this is beyond the 
imagination.
    The Chairman. Thank you, Senator Menendez.
    And, Mr. Abrams, I am going to join in Senator Menendez's 
invitation to you. If you need statutory assistance regarding 
the illegal gold or oil, for that matter, I think we are all 
in.
    These countries and these dictators survive because they 
have a flow of cash and that cash comes from those products. So 
I think Senator Menendez and I would be glad to join in any 
efforts to assist you legislatively.
    Senator Paul.
    Senator Paul. Thank you.
    Mr. Abrams, without a doubt, Venezuela is a socialist 
nightmare. It is, indeed, a vivid indictment of the economic 
system of socialism.
    It is appalling that a country like Venezuela that sits 
atop more oil than Saudi Arabia is in such a dire state that 
people actually eat their pets. No one disputes the disaster 
that is Venezuelan socialism.
    However, when it comes to regime change, the U.S. track 
record is less than stellar. It has been largely ignored that 
the possible replacement for Maduro, Guaido, is also a 
socialist. His political party is recognized by the Socialist 
International.
    My fear is that even if you get a kinder, gentler form of 
socialism, it is still socialism, and the results will be 
similar economic malaise and economic disaster.
    What do you say as to replacing one socialist with another 
in Venezuela?
    Mr. Abrams. I do not think the main problem in Venezuela is 
that one party or another is a member of the Socialist 
International, which a lot of partners of ours in Europe are 
and have been.
    It is that it is a vicious brutal murderous dictatorship 
and that is the real reason that we are engaged there. He has 
driven 5 million people out of the country----
    Senator Paul. I guess that response sort of somehow 
alleviates the stigma of socialism from being a problem--you 
know, that socialism is not the problem there.
    And I guess many others who have watched socialism through 
the years have argued that you really cannot have a kinder, 
gentler form of socialism, that what happens with democratic 
socialism is that when you want to have the state own the means 
of production or when you want to have the state own property, 
that, ultimately, it devolves into a cronyistic system--that 
what Chavez and Maduro started out as is not what it ended up 
as.
    When you have a more complete form of socialism, as 
socialism evolves, that perhaps authoritarianism is a side 
effect of socialism.
    You know, when Batista was rooted out, you know, he was a 
so-called cronyist or whatever. There were people who supported 
Castro. Many well-intended people supported Castro in the 
beginning, and it turned out Castro was not any better than 
Batista but was actually probably worse than Batista.
    So I think that we ought to be careful with this, and I 
think that discounting that socialism has anything to do with 
it is really discounting an economic nightmare that has 
happened in Venezuela and saying it is just because you got a 
bad socialist; if we had better socialists, we would not have 
so much of a problem.
    Do you think that the President has the right to militarily 
bring about regime change in Venezuela without the authority of 
Congress?
    Mr. Abrams. That is not our policy.
    Senator Paul. Do you think the President has the right to 
do that?
    Mr. Abrams. I think the President has the right to conduct 
the foreign policy of the United States under the Constitution 
and we, certainly, would like to see a democratic Venezuela.
    Senator Paul. Sounds like a non-answer. But, I mean, the 
question is do you believe that the President has the right to 
do so without congressional authority? This is a very important 
constitutional question.
    Also, if the answer is that socialism is not the problem--
we think one socialist is a little bit more benign than another 
socialist and we think the President has the right to do it--we 
could very much be involved in this.
    And the reason why this is important and why the discussion 
of regime change is important is that President Trump gets it 
more than almost anybody else that the Iraq war, which I know 
you were a big proponent of, was an utter disaster, that in 
getting rid of one bad person we were left with something maybe 
even worse and that is the vacuum, the chaos, and the terrorism 
that comes from having no government.
    This happened again in Libya. So the real question of 
whether or not we want to always think we know what is best for 
another country and we are going to replace one leader with one 
less bad is an important one.
    Do you still believe that the Iraq war is something that 
you would support today? Do you still think the Iraq war was a 
good idea?
    Mr. Abrams. Senator, I have not thought about the Iraq war 
in years because I am in this job trying to deal with----
    Senator Paul. Sounds like another non-answer. But it would 
be nice to know if the President had people around him who 
actually agreed with him.
    The President thinks it is the worst public policy decision 
of the last generation, that it led to a vacuum that actually 
led to chaos and more terrorism but also led to more of the 
emboldenment of Iran.
    So the same hawks that wanted to go after Hussein now want 
to go after Iran, but now Iran is worse because Hussein is 
gone.
    So, see, one thing leads to another, and there are 
unintended consequences, and I think the discussion of regime 
change is an important one, and I think we should not so 
casually dismiss socialism as being the problem in Venezuela.
    Mr. Abrams. Well, I am not casually dismissing it, and I 
think that it is a very bad economic policy. But we have had 
allies--I mean, England has had socialist governments. France 
has had socialist governments. Germany has had socialist 
governments. They were allies of ours throughout the Cold War.
    That was not the problem as long as they were democrats. 
Whether they pursue a terrible economic policy is essentially 
theirs to decide because it is their country.
    The problem with Venezuela is that it has a murderous 
corrupt regime that is having an impact not only inside but on 
all the neighbors.
    Senator Paul. Then the question is whether murderous thugs 
are an accident of history or whether they are a consequence of 
socialism.
    Why does it seem that time and time again socialism leads 
to autocracy? And that is an important thing because if you get 
a benign democratic socialism how long does that last until it 
devolves into authoritarianism? I think it is a question worth 
asking.
    Thank you.
    The Chairman. Thank you, Senator Paul.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Thank you both 
for being here.
    As you know, Ambassador Abrams, foreign powers like Russia, 
China, Cuba, Iran, and Turkey have not only publicly supported 
the Maduro regime but through a network of shell corporations 
and sanction evasion schemes they have significantly enriched 
Maduro and his cronies while ordinary Venezuelans continue to 
suffer.
    So I know that a number of sanctions have been taken in 
response to illegal activities stemming from adversaries like 
Russia, Cuba, and Iran.
    But Turkey, on the other hand, is engaged in these same 
activities as a NATO ally. Now, Venezuelan government 
associates have established numerous front and shell companies 
in Turkey.
    For example, and I may not be pronouncing this correctly, 
Grupo Iveex Insaat, a tiny Turkish company tied to Maduro, has 
capital of just $1,775 and no refineries. Yet, it was 
responsible for 8 percent of Venezuela's oil exports in 2019.
    So given what is going on with Turkey, is not there more 
that we should do to disrupt President Erdogan and Turkey's 
support of Maduro and those corrupt links?
    Mr. Abrams. Yes, Senator. It is a real problem.
    Turkey is not doing in Venezuela what the Russians and the 
Cubans are doing. Their presence is not so great. But they are 
lending themselves to this kind of corrupt activity. Also gold. 
We see a lot of gold passing through Turkey.
    We saw earlier this year some of these front companies 
develop in Mexico. But with the help of the Mexican government, 
we are shutting them down. We just have not had that kind of 
help from the Turkish government.
    Senator Shaheen. Well, that is why I ask if we do not think 
there is more that we should be thinking about in terms of 
sanctioning Turkey.
    Mr. Abrams. Well, we keep trying. We, again, is the 
Treasury--OFAC. We keep going after companies as we find them.
    Senator Shaheen. And so can you give us a list of those 
companies that we have gone after in Turkey that--and what 
success we have had at doing that?
    Mr. Abrams. I cannot today, but I would be happy to supply 
it to you, and some of it for investigations that are ongoing 
we would not be able to do it--we would do it--or we would do 
it in a classified form. But be happy to do it.
    Senator Shaheen. I think that would be helpful, Mr. 
Chairman, if perhaps that could be something that is shared 
with the whole committee.
    The Chairman. I agree with that.
    Mr. Abrams, if you could provide that list, or what you can 
that is not classified for the record, that would be much 
appreciated. Senator Shaheen's points are well taken as it 
relates to Turkey.
    [The requested information referred to above follows:]

    In July 2019, the Treasury Department designated the Turkish-
registered company Mulberry Proje Yatirim Anonim Sirketi in light of 
its role in the sale of gold in Turkey in connection with Alex Saab's 
corruption network. We will continue to review all tools available to 
deny the illegitimate Maduro regime access to illicit income streams, 
including those from gold sales abroad.

    Senator Shaheen. Now, during the last hearing that the 
committee held on Venezuela in March of 2019 we discussed the 
impact that this conflict is having on women, and several 
people have mentioned that already.
    Then USAID Administrator Mark Green stated that the 
disproportionate humanitarian effects on women and girls is the 
darkest and gloomiest part of Venezuela's crisis.
    So can you, either one of you, give us an update on the 
humanitarian assistant efforts that we have undertaken with 
respect to women and girls, particularly given what is 
happening with the coronavirus?
    Mr. Hodges. Yes, thank you, ma'am.
    And so this is an issue we are tracking closely sort of 
across the region, just stemming from the pandemic and its 
impacts to different countries.
    But specific to Venezuela, USAID promotes these types of 
promotion activities that are streamlined through all of our 
programming.
    To date, we have focused on the most immediate lifesaving 
assistance first and foremost, primarily health and food, and 
the prevention of gender-based violence and response to gender-
based violence is, as I stated, sort of covered under the 
protection activities writ large throughout all of our 
programming.
    It is an area, given the pandemic, we are looking to step 
up and make sure that within Venezuela and throughout the 
region we are more directly addressing.
    But it is part of all of our programming and with regards 
to inside of Venezuela as access becomes available to funding, 
additional funding, we will make sure to incorporate this 
further.
    And, again, just to highlight the number, to date the U.S. 
Government has provided $611 million in humanitarian assistance 
and so portions of that funding impact this, and it is an area 
I know we need to do more and we are working on that.
    Senator Shaheen. So when you say we need to step up, are 
you suggesting that more money needs to be provided? We need to 
be engaging in different kinds of activities?
    We need to be working more with the international 
community? What do you mean specifically when you say step up?
    Mr. Hodges. Yes, ma'am. So we are already working 
aggressively with the international community on this. In fact, 
there are some specific programs that are funded through USAID 
that directly address this.
    What I mean by that is to make sure that as we are pushing 
this. As we are seeing these trends emerge because of the 
pandemic, we are having discussions with our implementing 
partners to ensure it is not just a part of their program where 
it becomes something they do as one a number of things.
    But rather, that it be an area of focus that they are 
taking seriously, that they are actually coming up with new 
ways to address it.
    And I can speak to COVID writ large across the region. We 
have already had conversations to ensure that we have specific 
programs in place that are addressing gender-based violence and 
helping women and minorities who are being targeted.
    Senator Shaheen. Thank you.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen.
    Senator Romney.
    Senator Romney. Mr. Abrams, thank you, and both of our 
individuals this morning who have testified. I appreciate your 
work and your perspective.
    Mr. Abrams, in June, the President took a surprising tack 
with regards to Mr. Guaido. He said, ``Guaido was elected. I 
think that it was not necessarily--I think that I was not 
necessarily in favor but I said, some people that liked it, 
some people did not.
    ``I was okay with it. I do not think it was--you know, I do 
not think it was very meaningful one way or the other.''
    And I think that was a surprise in that the policy of our 
nation had been pretty consistently saying that we recognized 
Mr. Guaido as the President of the country and someone whom we 
firmly supported.
    There really is only once voice that matters when it comes 
to speaking the nation's foreign policy. The State Department 
and all of us can express our various views, and I am sure 
those have some weight. But to the world and to the people of 
Venezuela, it is the President who speaks for the nation.
    Perhaps he shares Senator Paul's comment that all 
socialists are pretty much the same and whether it is Guaido or 
whether it is Maduro does not make a big difference.
    But what is the posture of the United States of America 
with regards to the presidency of Venezuela and will that ever 
be communicated to the world unless the President expresses it 
himself?
    Mr. Abrams. The policy, Senator, is that we recognize Juan 
Guaido as the interim President of Venezuela and have since 
January 5th, 2019. We continue to do so.
    We will continue to do so after these corrupt parliamentary 
elections and we try to say that in many different ways every 
day.
    Senator Romney. Yes, and my question was until the 
President says it, will that ever break through?
    Mr. Abrams. Well, I think the President has said it, and 
you remember the State of the Union when Guaido not only met 
with the President but was the guest in the balcony there and 
got happily bipartisan ovations.
    So I think the President has said it.
    Senator Romney. Without Russia and Venezuela and Cuba 
supporting Maduro, do you believe he would be able to hang on?
    Mr. Abrams. I do not. I think those maybe 2,500 Cuban 
intelligence agents and the Russian veto in the Security 
Council are really important in keeping Maduro in power.
    Senator Romney. What then could we do with regards to 
Russia, China, Cuba? If we were really serious about removing 
Maduro and seeing a democratically-elected president in that 
country, what would we be doing?
    Would the President not be having this at a call with Putin 
and Xi Jinping and would we not be blockading, perhaps, fuel 
coming in from Cuba and Venezuela?
    What actions could we take if we were very serious about 
removing Maduro and seeing 5 million people be able to return 
to their homes?
    Mr. Abrams. There is a spectrum, Senator, and I suppose at 
the far end of it you could blockade Venezuela. That is an act 
of war, but you could do it and you could prevent ships from 
going in and coming out.
    We have, obviously, chosen not to do that. We do talk to 
the Chinese about this. We talk to the Russians about this. I 
do not think either of them has very great confidence in 
Maduro.
    If you look at the amount of money China has put into 
Venezuela this year, it is, basically, zero. They are backing 
away. The Russians are taking money out of Venezuela, trying to 
get their money back. But they maintain the political 
protection and the protection in the U.N.
    Senator Romney. Given your expression of their timid 
support for Maduro, would it not be possible for us to exert 
sufficient incentive for them to walk away from him as opposed 
to continuing to support him in such a substantial way were 
this not a high priority for our nation?
    Are we so incapable of use of soft power to get two 
nations, which you suggest do not have a great commitment to 
Maduro, to back away?
    Mr. Abrams. Well, it has not worked so far. I think from 
the point of view of Putin, you know, this is a kind of freebie 
in the sense that it is not costing him any money now and, 
obviously, he has got a kind of base in South America.
    But as you start to weigh what are the things you would 
actually do in that bargain with Putin, we have not found 
anything attractive.
    Senator Romney. Thank you.
    Mr. Chairman, I will return the time. But your point that 
it is a freebie for Russia I would suggest that it is in our 
interest to make sure it is not a freebie for Russia.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Romney, for returning the 
time. We will put it in a bank, but it is a minus seven.
    [Laughter.]
    Senator Romney. Is there a per, you know, minute charge for 
that? A per second charge, Mr. Chairman?
    The Chairman. We will talk.
    Senator Romney. All right.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    You know, I feel like it is Groundhog Day in this 
committee. We have been told by the Administration, frankly, 
multiple administrations for years that Russia's support for 
Assad and Iran's support for Assad is tepid. It is fragile. It 
is just a matter of time before he falls.
    The truth of the matter is they were always willing to do 
more than we were in Syria to protect their interests and that 
is likely the exact same case here in Venezuela, and so our 
policy has been misguided by fundamentally flawed assumptions 
from the beginning.
    And I have deep respect for both of you who are testifying 
before this committee. But we just have to be clear that our 
Venezuela policy over the last year and a half has been an 
unmitigated disaster, and if we are not honest about that then 
we cannot self-correct.
    We have to admit that our big play, recognizing Guaido 
right out of the gate and then moving quickly to implement 
sanctions, just did not work. It did not.
    All it did was harden Russia and Cuba's play in Venezuela 
and allow Maduro to paint Guaido as an American patsy, and a 
lot of us warned that this might happen.
    We could have used the prospect of U.S. recognition or 
sanctions as leverage. We could have spent more time trying to 
get European allies and other partners on the same page. We 
could have spent more time trying to talk to or neutralize 
China and Russia early before we back them into a corner, a 
corner from which they are not moving. They are not moving. But 
all we did was play all our cards on day one and it did not 
work, and it has just been an embarrassing mistake after 
mistake since.
    First we thought that getting Guaido to declare himself 
President would be enough to topple the regime. Then we thought 
putting aid on the border would be enough. Then we tried to 
sort of construct a kind of coup in April of last year and it 
blew up in our face when all the generals that were supposed to 
break with Maduro decided to stick with him in the end.
    We undermined Norway's talks last summer and then this 
March we released a transition framework that, frankly, is 
almost a carbon copy of the very one that was in front of the 
parties last year.
    And now, after wasting all of this time, we are stuck with 
elections about to happen, that is, we have talked about today, 
Guaido and the opposition refuse to enter.
    And then we are going to be in a position where we are 
recognizing someone as the leader of Venezuela who does not 
control the government, who does not run the military, and who 
does not even hold office, and we do not do this in other 
places, right.
    Nobody knows the name of the guy who finished second in the 
2018 Russian presidential election. We do not recognize that 
person as the President of Russia no matter how corrupt those 
elections are because doing that makes us look weak and 
feckless if we cannot actually do anything about it.
    And so I do think it is important to ask some questions 
about what comes next, and I might have time for only one but I 
have two.
    The first is this question of what do we do with Guaido. So 
you are saying we are going to recognize him because he is the 
former leader of the National Assembly. You know, Mr. Abrams, 
there are contests for supremacy within the opposition.
    What happens if 6 months from today someone else emerges as 
a more legitimate voice for the opposition than Juan Guaido? 
What criteria do we use to recognize someone new or is Juan 
Guaido going to be the recognized leader of Venezuela 
permanently no matter how conditions change on the ground?
    Mr. Abrams. I think the situation with Guaido is unique 
because he is the President of the National Assembly. They are 
going to have a corrupt election now, which no one, I think--no 
democratic country is going to recognize, and that corrupt 
election, that fraud, is not going to change Guaido's status, 
and I do not think you will find anybody in the opposition 
leadership who will claim otherwise.
    Also, I would just like to say, Senator, you know, that was 
not the vote of confidence in the policy I would have liked.
    Senator Murphy. I understand, you dispute my premise. I 
will stipulate to that.
    Mr. Abrams. Yes.
    Senator Murphy. I will stipulate to that. Okay. I think 
that that is a fallacy to suggest that no one is going to step 
forward and replace Guaido, and I think we have to sort of at 
least think through the criteria by which we may recognize 
somebody else.
    Let me ask a quick second question, which is this. Guaido's 
prerequisites for participating in the election did not include 
Maduro stepping down, and yet, you have said as recently as a 
week ago that the only thing we want to talk to Maduro about is 
his removal from power.
    Are we open, the United States of America, to a discussion 
with Maduro in which he stays in power as a transition to an 
election that is actually free and fair? Because, frankly, even 
if he is not in power there is no guarantee that his allies 
could rig an election. So why are not we open to that as a 
possible path forward?
    Mr. Abrams. Because we do not believe that a free election 
in Venezuela is possible with Maduro in power, in control of 
the army, in control of the police, in control of the colectivo 
gangs, with 2,000 or 3,000 Cuban intelligence agents. We do not 
see that that is a possibility of a free election.
    Senator Murphy. I would say Guaido does not share that view 
because his preconditions for taking part in the elections did 
not require the removal of Maduro, and it is also not clear 
that even without Maduro there could be a free and fair 
election.
    And so I think this is just a prescription to get stuck in 
a downward spiral of American policy from which we cannot 
remove ourselves. We have got to be more nimble, more creative, 
more open to solutions by which we could get to an election 
even with Maduro there as a transition.
    Thank you, Mr. Chairman. I am over my time.
    Mr. Abrams. Could I respond for just a few seconds?
    The Chairman. Go ahead.
    Mr. Abrams. You know, we presented this Framework for a 
Democratic Transition precisely to show what we would like to 
see happen, and in the Framework, both sides, the Chavistas and 
the opposition, in the National Assembly, elect a transitional 
government.
    Each side has veto power. Guaido and Maduro would not 
participate in the transitional election. Both could run for 
president in a future free presidential election.
    We thought we were putting out, and many, many countries 
have looked at this, have said this is a positive formula and 
we showed the way to the lifting of U.S. sanctions.
    And I would just say, again, just under 60 countries 
support Guaido. So the notion that we have done this alone and 
without international support, Senator, I would submit is not 
accurate.
    The Chairman. Thank you.
    Senator Rubio.
    Senator Rubio. On that point, thank you both for being 
here.
    How many countries in Latin America recognize Guaido as the 
legitimate interim president?
    Mr. Abrams. Every country except, I think, Cuba, Argentina, 
and Mexico.
    Senator Rubio. I imagine Nicaragua?
    Mr. Abrams. Yes, Nicaragua. Sorry.
    Senator Rubio. Let me ask you, we did not just pull Guaido 
out of the air and say, this is who we will recognize.
    The basis of our support for Juan Guaido as the legitimate 
interim President and the basis for why all these other 
countries have also recognized him is because he is the 
democratically-elected member of the National Assembly who the 
democratically-elected members of the National Assembly have 
made the President of that assembly that, under the Venezuelan 
constitution, fills the role of president when there is a 
vacancy in that office. Is that not the reason why we 
recognized him?
    Mr. Abrams. That is correct. We did not choose Juan Guaido. 
The constitution of Venezuela chose Juan Guaido.
    Senator Rubio. As interim President until the next free and 
fair election?
    Mr. Abrams. Yes.
    Senator Rubio. Because I also heard a comment earlier by 
one of my colleagues--I believe that was Senator Paul, who is 
no longer here--but he said that our policy of replacing Maduro 
with Guaido, that is not the policy of the United States.
    The policy of the United States is to try to promote a 
transition to free and fair elections where the people of 
Venezuela choose who the next president of Venezuela is.
    Mr. Abrams. That is exactly right.
    Senator Rubio. Let me ask you another thing you hear a lot 
about: is he still clinging to power. First of all, I think it 
is fair to say that the Maduro regime is not really a 
government in the traditional sense of the word.
    It is an organized crime ring. Is that a fair 
characterization?
    Mr. Abrams. It is, and I think it is what distinguishes it 
from many Latin American cases of military juntas, which were 
replaced by democratic government.
    Senator Rubio. And as a criminal enterprise, basically, 
what it is comprised of, these individuals that allow Maduro to 
remain, ``in power,'' much of the country they do not really 
exercise much government writ any longer but heavily focused in 
Caracas.
    But to the extent that they are in control of national 
territory, the people that allow them to do it, the reason why 
they do it is not--it is fair to say most of them it is not 
either ideological or a personal affinity towards Mr. Maduro.
    It is actually the fact that these people have become very 
rich and want to maintain power that allows them to keep their 
money and their personal freedom. Would you not say that is the 
glue that holds together this criminal enterprise?
    Mr. Abrams. I would, Senator, and I think that explains 
part of the difficulty in getting them out.
    Senator Rubio. And the reason why they will not leave is 
not because they love Maduro. Some of them want to replace him. 
The reason why they cannot leave is because right now he is 
their best bet, at least for this moment. In essence, of all 
the options before them, this is the one that most guarantees 
them the power for the time being to protect their wealth and 
their personal freedom.
    Mr. Abrams. Senator, I think that is right, and I think, 
again, it explains the great difficulty of Venezuela.
    Senator Rubio. Is it not also fair to say that one of the 
things that a lot of those folks in there are probably thinking 
about is, let us see what happens, moving forward, in American 
politics. Maybe there will be a change in policy.
    To me, this is an issue that has had pretty strong 
bipartisan support. I think it is a bad assumption on their 
part.
    But there are some that are sort of standing around saying, 
well, let us wait and see because maybe after the elections 
there will be a change in policy that will take the pressure 
off of us.
    Mr. Abrams. That is our calculation, too, that Maduro is, 
to some extent, watching and waiting.
    Senator Rubio. I think it is a bad bet. I do not think he 
has very many supporters here that are in favor of him 
remaining in power.
    The last point is a pretty straightforward question. You 
have answered it many different ways and times but I want to 
reiterate once more.
    Whether it is the President or anybody else, when they 
discuss talking to Maduro, that means a negotiation with Maduro 
about how he leaves his current position and allows for there 
to be free and fair elections. We are not discussing talks. We 
are not open to talks about how he remains in power.
    Mr. Abrams. That is right. We are open to talks about his 
leaving power. Does he want to stay in Venezuela? Does he want 
to leave Venezuela? What happens to the sanctions? That sort of 
thing, for him and other people.
    Those discussions we are willing to have. But a negotiation 
about his remaining in power in Venezuela, we are not going to 
have.
    Senator Rubio. And my last question is we see them buying 
all of this gasoline from the Iranians. One of the most oil-
rich countries in the world no longer has any refining capacity 
and that has been the case for a long time, way even before 
these sanctions took hold. How are they paying for it?
    Mr. Abrams. They are paying Iran with gold, as far as we 
are aware.
    Senator Rubio. From both their reserves and from illegal 
mining?
    Mr. Abrams. Yes. The gold reserves--the value seems to be 
rising because the price of gold is rising. But we are able to 
see sometimes the movement of gold out, which we think is to 
Iran, and they are trying to refill it in part through current 
gold mining in the Arco Minero.
    Senator Rubio. So, in essence, they are depleting their 
national gold reserves to buy time to provide even very limited 
amounts of fuel?
    Mr. Abrams. They are.
    Senator Rubio. Thank you.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman. Thank you to the 
witnesses. This is a very hard problem, and I think the 
situation we all acknowledge in Venezuela is disastrous from a 
humanitarian standpoint.
    I think the Trump administration has gotten some things 
right and I think the Trump administration has gotten some 
things wrong. I do not think it was easy to get 70 nations to 
recognize the Guaido government.
    I think that was a good bit of diplomacy, and I do not 
think anybody should take for granted that that was simple. And 
so that I would put in the positive side of the ledger with 
respect to the efforts.
    I think the early suggestion that military options were on 
the table meant that many of the nations that recognized the 
Guaido government would not also embrace the sanctions that we 
wanted them to, and I have had conversations with leadership in 
some of the nations that have been with us on the recognition 
but not on the sanction, where they expressed reticence and 
used that as a reason.
    But, fundamentally, I do not think the Venezuelan reality, 
you know, is bad because of the United States or bad in spite 
of the United States. It is a brutal dictatorship, and it is a 
dictatorship that is propped up by the world's leading 
authoritarian nations.
    And, in a way, I almost think Venezuela is like the perfect 
example to the world, if you want to live under an 
authoritarian government, take a look, because you got Iran 
there and Russia there and China there and Turkey there and 
Cuba there, and if this is the form of government you want then 
take a look at what it has done.
    So what should we do now? I, first, think we have to be 
realistic. One of my concerns has been from the very beginning 
that from the witness side of the hearing rooms in this 
committee we have often heard optimism expressed about what the 
recognition of Guaido might do and we are right around the 
corner from a transition.
    And it has been interesting to me because when I have had 
conversations with the Colombians they have never been 
optimistic about anything quickly. They are right on the 
border. They have dealt with Venezuela under so many challenges 
over so many years. They were never optimistic that a 
transition would be quick.
    And so this is not just a Venezuela issue. I think it is an 
issue that, you know, for a whole series of reasons including 
some good ones. We are a can-do optimistic people. We often 
overestimate our ability to affect the internal reality of a 
country, and we have to be a little more humble about that. So 
maybe a little humility would be important.
    Second, the humanitarian challenges. There are now 40,000 
to 50,000 Venezuelans that have crossed the border from 
Colombia back into Venezuela because when Colombia had to shut 
down the economy due to COVID it put so many people in 
desperate situations that even though they were going to be 
desperate in Venezuela they would have a roof there with 
family, and so you see people crossing back.
    I am really interested in Colombia. I am really worried 
about the effect that the Venezuelan reality has on Colombia, 
and so I would put as a very top priority, first, continuing to 
do everything we can to get humanitarian aid to Venezuelans, 
and you cited the number. We should do even more.
    Second, do everything we can to protect the hard-won gains 
that administrations in both parties have made in terms of 
turning Colombia around because Colombia, right on the border 
of Venezuela, offers the antidote.
    If Venezuela stands as the example of you want to live 
under authoritarians this is what your life is going to be 
like. Colombia can offer the opposite.
    If you embrace democratic norms and work over time, look at 
the positive arc you can be on. And I think we have an enormous 
amount invested in that arc that is fragile, that is at risk, 
and the Venezuelan situation puts it at risk.
    So I think the second element of a strong Venezuelan policy 
in addition to humanitarian support needs to be continued 
support for Colombia, and I want to ask about that in my last 
minute after I say this third thing.
    I do think the third thing that would be really important 
is TPS. I echo what Senator Menendez said before I came into 
the room. If our critique is this is a brutal dictatorship and 
these people are living under intolerably bad conditions, to 
say all of that and we want to change but we do not want to let 
you come into our country it undercuts our message, in my view, 
and suggests we are not that worried about them. And I think 
this is the perfect example of how TPS should be used.
    My question is, tell me how we are doing in Guatemala right 
now and what more we can do to support that government as they 
deal with this Venezuelan challenge.
    Mr. Abrams. Well, thanks, Senator.
    First, I agree with you about the importance of making sure 
that this multi-decade bipartisan effort in Colombia stays on 
track, and the Colombians have been, you know, amazing in 
welcoming now about 2 million Venezuelans, and you can see the 
burden on the hospital system, the educational system. But they 
are doing it.
    So I think money is part of what we should be doing to help 
Colombia, and they are doing this, by the way, as they continue 
even in the context of COVID to eradicate coca. It is really 
extraordinary. I think, you know, hats off to President Duque 
and his government.
    So I think we need the bipartisanship to continue. We need 
political support from the Administration, which we have, and 
we probably need to look again at the aid levels because, you 
know, we come up with these numbers before this surge of a 
couple of million Venezuelans into Colombia.
    Mr. Hodges. And, sir, I would add to that I completely 
agree with your comments and the Special Representative. This 
is an area where we are definitely engaged.
    We are engaged directly with the Colombians throughout the 
interagency on both the coca eradication, on the Venezuela 
crisis, and, in addition, making sure all of those 
conversations are connected back to the response to the COVID 
pandemic.
    And so we have taken a series of steps from the USAID side 
to make sure that the pandemic is not going to wash away the 
gains that we have made within Colombia. Obviously, the 
pandemic sets new realities in country for some of the 
assistance that we have going on there.
    But we are continuing to evaluate our programs, update them 
to make sure they are based on the current reality, and not 
where we were 6 weeks ago or 4 months ago.
    And so we are actively doing that and we are working 
closely with the State Department interagency on all of this.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kaine.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, thank you for your good work, your service, your 
testimony.
    Mr. Abrams, does Maduro survive the year and what can we do 
to maximize the chances that the answer to that question is no?
    Mr. Abrams. Well, we, obviously, hope he does not survive 
the year and we are working hard to make that happen.
    What needs to happen for that to occur? The Venezuelan 
people have to react against this election. International 
support of the--I think it is 59 countries, and we hope to add 
to that, have to reject this election as a complete fraud.
    We need more sanctions, personal sanctions, of the sort the 
EU, Canada, the Rio Treaty countries have done--travel 
restrictions.
    Here is a case where more is better because they put more 
pressure on the regime, and we need to continue in the case of, 
particularly, the Iran-Venezuela relationship, to try to 
prevent it from growing.
    Senator Cruz. So do I understand correctly that Maduro was 
on a plane, he was ready to leave, he had given it up, and the 
Russians called him and convinced him to stay? Is that right 
and what changed in his calculus that caused him to get off 
that plane?
    Mr. Abrams. I do not know if it is right. I have heard 
several stories about it. One version is it was his wife who 
actually did leave.
    Another is that he was not on a plane but was going to get 
on a plane and the Russian ambassador met with him and 
persuaded him to stay, we are behind you.
    I do not have firm intelligence of that. Those are 
different stories. I think, you know, the day will come when he 
is going to have to make the decision of where he is safest--
fleeing to a place like Cuba or Russia, or is he safest staying 
in Venezuela because then we cannot extradite him.
    Senator Cruz. I would think one of the important questions 
on that is where the Venezuelan military lines up and, in 
particular, their generals and admirals. What do we know in 
terms of the calculus those military leaders are engaging in 
right now about what is good for their future, what is good for 
their families, what is good for their country, although I am 
not sure with many of them that third question is the 
predominant question.
    Mr. Abrams. Our impression is they are thinking. Some of 
them are ideologically Chavistas. Most are not. Some of them 
are criminals. Most are not.
    They are on a spectrum here in how that view that regime. 
Many are trying to figure out ``what happens to me,'' and it is 
probably the case--we have heard this from a lot of people--
that the opposition has not spoken clearly enough about the 
questions of guarantees and amnesty and so forth for some 
behavior.
    There have been those kinds of amnesties in every country 
that has gone from dictatorship to democracy in Latin America, 
for that matter, in Europe, South Africa.
    So they are thinking about that and we do try to get 
messages through to the people in the high command, sometimes 
publicly saying, look, Venezuela needs a modernized paid 
military, and you are not going to get it from Maduro. We need 
to reestablish the kind of mil-to-mil relationship we once had.
    Senator Cruz. So what more in terms of carrot and stick can 
Congress do and can the Administration do to change the 
calculus for the generals and admirals so that they come to the 
unequivocal conclusion it is much, much worse for me if Maduro 
stays in power than if this illegitimate regime is toppled and 
if, instead, you have democratically legitimate government in 
Venezuela?
    Mr. Abrams. Actually, I think the best thing we could do 
would be a bipartisan expression that this policy is not going 
to change. It has support in both parties.
    We are not going to let up on the sanctions. We are not 
going to let up on the criminal prosecutions. We are going to 
stay with it. So this is going to keep on going year after year 
until this regime is replaced.
    Senator Cruz. Well, I think that is a good invitation, and 
I know this committee has acted in a bipartisan manner before. 
I think that would be a very positive thing if this committee 
were able to come together and do that again to make clear that 
Maduro will have no friends regardless of what happens in an 
election 91 days from now.
    Let me ask about a different aspect of Venezuela, which is, 
as you know, for over 2 years six Americans and five of them 
from Texas have been imprisoned in Venezuela related to charges 
manufactured about their work for CITGO. They have missed 
birthdays, they have missed weddings, they have missed 
funerals. They are imprisoned in inhumane conditions. They are 
subject to abuse. Their families continue to live in fear for 
their health and well-being.
    Last week, two of the men were rereleased to house arrest. 
But a lot more needs to be done. What is the status of your 
efforts to make sure that the CITGO 6 are brought home?
    Mr. Abrams. We are in touch with the families. We are in 
touch with anyone who is trying to help, and that would include 
Governor Richardson, who was down there a couple of weeks ago.
    We have made and we continue to make a--I guess I would 
call it a global diplomatic effort with the governments, for 
example, of Mexico, of Spain, of Argentina, with the Vatican.
    We keep asking ourselves who could we go back to? Who is 
somebody new who has influence in Caracas? What can we do to 
increase the pressure or the inducements on the regime?
    Moving two to house arrest, again, is a positive step. We 
hope that the next step is the other four go to house arrest as 
a step toward getting home. It has been since 2017. It is 
getting on to 2 and a half years now and they belong home with 
their families. These men have never had a trial.
    Senator Cruz. Thank you very much.
    The Chairman. Thank you, Senator Cruz.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Hodges, 40 percent of hospitals in Venezuela lack 
electricity. Seventy percent of hospitals lack access to water. 
The U.N. estimates 7 million people in Venezuela are in need of 
humanitarian assistance but only able to address 10 percent of 
that.
    What are we doing--State Department, USAID--to expand 
access inside Venezuela for organizations seeking to deliver 
lifesaving assistance along the lines with our respect for 
humanitarian principles of neutrality, impartiality, and 
independence? Are we building on the recent agreement between 
Guaido and Maduro health officials to support the Pan American 
Health Organization's work in Venezuela? Is that a one-off 
deal?
    I mean, I am very focused on creating democracy in 
Venezuela. But in the interim, there is a humanitarian 
catastrophe happening.
    Mr. Hodges. Absolutely, sir. And from a humanitarian 
assistance perspective, it is less a question in my mind of 
whether or not we remain committed to the bipartisan support 
for this issue. As you have all stated, the reality is this is 
Maduro against the Venezuelan people, the Venezuelan families 
who are suffering day in and day out.
    And just to cite some specific examples of funding 
regarding what is inside Venezuela, as the committee knows, we 
have provided $128 million in support of longer-term 
development programs, but, more specifically, $43 million for 
critical health, water, food assistance.
    And within that, we have reached----
    Senator Menendez. This is inside of Venezuela?
    Mr. Hodges. Inside Venezuela. Yes, sir.
    And we have reached 9 million people if we include sort of 
the totality of our programs within Venezuela. That does 
include vaccination campaigns.
    But in our strictly day-to-day health support, we have 
reached around 600,000 people. We continue to seek ways to do 
exactly what you are saying, sir, and it is an area where we 
know more needs to be done. We call on the international 
community to----
    Senator Menendez. And what about the Pan American Health 
Organization agreement that Guaido and Maduro's people have?
    Mr. Hodges. Yes, sir. We are supportive of this and we are 
working, as you are aware, with PAHO with the State Department 
and others over the course of the last several months to 
overcome several obstacles to make sure that the U.S. taxpayer 
funds that were provided to PAHO would be used in the manner 
that----
    Senator Menendez. Well, I would like you to follow up with 
our office to get the totality of what you are doing in this 
regard.
    Mr. Hodges. Absolutely, sir, and it is----
    Senator Menendez. And one other question. Of the $611 
million that has been provided for humanitarian assistance in 
response to the Venezuela crisis, how much is supporting 
efforts to prevent and respond to gender-based violence?
    Mr. Hodges. So, sir, I will have to follow up with a 
specific figure on that. As I mentioned earlier, all of our 
programming throughout the region includes aspects that deal 
with this.
    But we do not have specific line items or earmarks 
designated for gender-based violence.
    Senator Menendez. Well, I would like to know what is being 
spent because we have a horrific situation where violence 
against women, girls, LGBTI individuals, persons with 
disabilities, and we know that women and girls fleeing 
Venezuela are facing grave threats of sexual violence and 
trafficking by armed groups.
    This committee has a long history of supporting efforts on 
trafficking against persons against--obviously, against their 
will and human trafficking, sexual trafficking, and what not. I 
would like to know what we are doing in that regard.
    Mr. Hodges. Absolutely, sir, and we will get you those 
specific funding numbers. And one thing I do want to state here 
is that inside Venezuela we do have funding that is dedicated 
to protection.
    That is protection for all, and with that figure, I think, 
is right under $4 million. But we will follow up with an exact 
figure sort of across all programs.
    Senator Menendez. Mr. Abrams, let me ask you a question.
    As mentioned in my opening statement that the U.N. has 
documented over 8,000 extrajudicial killings in the last 2 
years alone within Venezuela, Canada and several countries have 
mounted evidence of Maduro's regime crimes against humanity.
    Under Section 142 of the VERDAD Act, which I wrote, when 
Congress required the State Department to conduct an assessment 
of the regime's role in potential crimes against humanity, you 
sent us a report that contained ``a list of allegations,'' a 
list that failed to include any mention, any mention, of the 
U.N. report.
    By every standard, that report failed to contribute to an 
indelible record of the Maduro regime's crimes, a record I know 
that you and I both agree about.
    So do you believe a state-sponsored campaign of more than 
8,000 murders in 2 years should be considered a crime against 
humanity?
    Mr. Abrams. Yes, Senator.
    Senator Menendez. Would you go back to the department and 
ask them to resubmit Section 142 of the report and treat it 
with the seriousness it deserves?
    This is a compelling reality. We got a U.N. document, 8,000 
extrajudicial killings. We do not even mention it our statement 
and we did not do anything more than a list of allegations. We 
can do much better than that.
    Mr. Abrams. Yes, sir.
    [The requested information referred to above follows:]

    I reviewed the Department's ``Report on the Former Maduro Regime's 
Accountability for Crimes Against Humanity'' submitted February 2020 
and believe that it appropriately responds to the relevant reporting 
requirement in the VERDAD Act. The report does not merely provide a 
list of allegations; it specifically provides detailed information 
about the degree to which the former Maduro regime and its officials 
have ``engaged in actions that constitute possible crimes against 
humanity,'' including the constituent acts of murder, imprisonment, 
torture, and certain forms of sexual violence, and other serious abuses 
of human rights. Such acts can, under certain circumstances, constitute 
possible crimes against humanity. The report also included options for 
holding the perpetrators of such acts accountable.
    The U.N. Office of the High Commissioner for Human Rights (OHCHR) 
is the most cited organization in the Department's report and is 
mentioned more than 10 times. For example, the subsection on 2019 
unlawful killings states that the NGO Observatorio Venezolano de la 
Violencia (OVV) ``reported at least 2,124 unlawful killings for murders 
committed by the former Maduro regime identified as resistance to 
authority over the same period. Information analyzed by the OHCHR 
suggests that many of the former Maduro regime resistance to authority 
killings may constitute unlawful executions. In September 2019, 
Bachelet stated that regime-aligned security forces had probably 
committed 57 additional murders since her July 2019 report.''
    The Department looks forward to working closely with Congress on 
future reports involving this legislation.

    Senator Menendez. Now, lastly, I just want to go through a 
series of things, and you tell me yes or no whether they are 
the case.
    We see Colombian guerillas operating openly across 
Venezuela in large swaths of ungoverned territory. Is that 
true?
    Mr. Abrams. We do, including even in eastern Venezuela.
    Senator Menendez. We see a wide range of armed actors 
profiting from drug trade, illegal gold mining, and human 
trafficking. Is that true?
    Mr. Abrams. Yes.
    Senator Menendez. We see femicide, sexual violence, 
trafficking of Venezuelan women and girls reportedly on the 
rise. Is that true?
    Mr. Abrams. Yes.
    Senator Menendez. Is it fair to say that Maduro's regime 
has perpetrated more state-sponsored murders than any Latin 
American government since the dirty wars of the '70s and '80s?
    Mr. Abrams. Yes.
    Senator Menendez. And you have already acknowledged the 
U.N. High Commissioner for Human Rights report of 8,000 
extrajudicial killings as well as grotesque patterns of torture 
and rap. That is true as well, right?
    Mr. Abrams. Yes.
    Senator Menendez. It is true that 5.2 million Venezuelans 
have fled their country, is it not?
    Mr. Abrams. Yes.
    Senator Menendez. And at the rate it is going, it is 
possible that more Venezuelans would flee Venezuela than 
Syrians fled that horrific war?
    Mr. Abrams. Yes.
    Senator Menendez. It is true that Maduro and his cronies 
face charges in the United States for drug trafficking and 
graft?
    Mr. Abrams. Yes.
    Senator Menendez. And that we are dealing with a massive 
law enforcement challenge in Venezuela. Is that true as well?
    Mr. Abrams. Yes.
    Senator Menendez. And it is also true that, in fact, what 
we have here is the challenge in a regional context. While 
Colombia has been a great neighbor and a good hemispheric 
leader, it has consequences.
    It has consequences to Colombia's stability if, in fact, 
the demand continues, several million, to smaller countries 
like Ecuador and others. Is not that the potential for regional 
instability if this continues to hemorrhage?
    Mr. Abrams. Yes.
    Senator Menendez. Well, if I look at all of that, it sounds 
to me that Venezuela is a clear and present danger to the 
United States.
    Mr. Abrams. To the United States and to its neighbors.
    Senator Menendez. So in my mind, if all of that rises to a 
clear and present danger to the United States, then we would be 
far more serious in our engagement. We would be following and 
sanctioning the Turkish companies that are making it profitable 
for Maduro to benefit.
    We would be proactively seeking out the transfers of oils 
that are going to Cuba, which is why Cuba is keeping several 
thousand of its security agency around Maduro to prop him up.
    We would be sanctioning Russian companies that specifically 
are providing assistance to the Maduro regime inside of it and 
we would use, to take a page from Senator Murphy, clearly, we 
would be engaging with the Russians and Chinese as well as the 
Turks and others in ultimately making it something of value to 
them to undermine Maduro, because right now they are propping 
him up and they see no consequence to them of keeping him 
propped up.
    In our own hemisphere, in our front yard, to have a clear 
and present danger to the United States is pretty amazing.
    There is a lot more that should be done here and I just 
fear that, at the end of the day, we are on auto pilot and that 
auto pilot is not going to get us to where we want.
    Mr. Abrams. Senator, I would only respond that we have 
already done and are doing many of the things that you have 
mentioned. It was our sanctions on Rosneft that got it out of 
Venezuela.
    It was our move against Greek-owned ships that turned them 
away from bringing Iranian gasoline to Venezuela. We have 
sanctioned over a thousand different people and entities.
    So we are doing this. It has not had the impact that you 
and the members of the committee and, of course, all of us 
wanted to have, which is the restoration of democracy in 
Venezuela, yet.
    Senator Menendez. Well, you know, I would engage with the 
Spanish, who seem to be a problem in helping us in this regard. 
You know, they have influence with other countries in the 
hemisphere.
    I could lay out for you a dozen different initiatives that 
if we are really serious and focused on getting rid of Maduro 
and restoring democracy to Venezuela and stability to the 
region as a result of the hemorrhaging that is going on. I 
mean, the lawlessness that is taking place in Venezuela is 
alarming. Even if Maduro leaves you are going to have a real 
challenge at the end of the day.
    So yes, there is bipartisan support here to get us to where 
we need to be. But some of us have a sense that, again, we are 
on autopilot and we are not engaging in ways and with others in 
order to bring this to a successful conclusion, one that I know 
we both share in terms of a vision but one which I honestly say 
I think we have different views.
    And I appreciate the chairman's willingness to give me this 
extra time.
    The Chairman. Thank you, Senator Menendez.
    Good points all along. I, however, do question whether or 
not either the Russians, the Chinese, the Cubans, or anyone 
else that is engaged there are going to listen to us as far as 
trying to convince them that it is in their best interest to 
leave when they enjoy putting a stick in our eye.
    Nonetheless, I think, perhaps, you have made some good 
suggestions. I think, perhaps, some bipartisan legislation 
urging the kinds of things that you have laid out might be 
appropriate, and I really think that everybody is pulling the 
wagon the same here. And I think perhaps some bipartisan 
legislation in that regard and I will be happy to join in that 
regard.
    Senator Murphy or Senator Kaine, anything else for the good 
of the order?
    Senator Murphy. There we go. Just one additional question.
    Much of our policy over the course of 2019 was predicated 
on the idea that we could force a fissure between Maduro and 
military leadership and, in fact, the episode in April in which 
we had hoped that there would be a substantial break did not 
pan out, in part because many of those leaders at the last 
minute appeared to get cold feet.
    I guess sort of just two questions on that. One, when you 
say to Senator Cruz you hope he is not there at the end of the 
year, how much of that is predicated on a continued belief that 
you can split the military leadership away from Maduro?
    And second, what did we learn from 2019 about the ways in 
which Maduro has successfully and perhaps, surprisingly, to 
American diplomats been able to hold together his leadership?
    Mr. Abrams. I think we learned, one, that there are a 
number of people in the military who, unlike military leaders 
in previous Latin American dictatorships, are really part of a 
criminal gang, and they are going to be extremely difficult to 
dislodge.
    I think we learned that a lot of people in the military are 
concerned about the questions of guarantees and an amnesty and 
want to hear about it more quickly.
    I think we learned that they want more of a sense of what 
happens after Maduro, which is one of the reasons we put 
forward the framework to show here is how we see it playing 
out.
    I think we learned that we need to keep trying to reach out 
to military leaders in every possible way directly, indirectly, 
in public to get our messages across and we try to do that. 
SOUTHCOM, for example, tries to do that in their communications 
as well.
    I would also say that we learned that there is no 
substitute for keeping the pressure on. And I would say the 
last thing the policy is is on auto pilot. We are constantly 
trying to think, who have we not reached out to? Who should we 
go back to again? What have we not tried that we should try?
    Because, like you, we all want this policy to work to 
restore democracy to Venezuela or, better said, to help 
Venezuelans restore democracy to their own country.
    Senator Murphy. Thank you.
    The Chairman. Thank you.
    Mr. Hodges. If I may, on that, I just want to add that 
USAID is actively engaged on this with the State Department.
    We are actively working with civil society groups to raise 
awareness of the brutality, of the repression, of the real-life 
situation on the ground so that everyone throughout Venezuela 
can have access to that information.
    We know the regime does not want that information getting 
out and we are trying to break through by various different 
means.
    And so we are very proud of the work we are doing in this 
space to increase that access to information to everyday 
Venezuelans including folks in different security sectors.
    The Chairman. Thank you very much.
    Well, Mr. Abrams, Mr. Hodges, thank you so much for your 
service. I think this has been a hearing that will help 
enlighten Americans to where we are on all these very difficult 
issues, been appropriate discussion of some of the real knotty 
problems that we face in trying to do what we all want to see 
done.
    For information, members, the record will remain open until 
Thursday. We would ask witnesses to respond as promptly as 
possible.
    To questions that are raised and we had some discussions 
here about things that would be supplied to the record, for the 
record we would ask you to do that as promptly as possible.
    And with that, the committee stands adjourned.
    [Whereupon, at 11:32 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


               Responses of Elliott Abrams to Questions 
                  Submitted by Chairman James E. Risch

    Question. Cuban military and intelligence support is the linchpin 
to Maduro's survival. What more can be done to drive up the cost to the 
Cuban regime? What options are there to block the oil shipments between 
the two?

    Answer. Cuba provides support that allows Maduro to cling to power 
and gives him the false sense that he can be shielded from some of the 
effects of international economic and diplomatic pressure while the 
Venezuelan people suffer. The U.S. government targeted for sanctions 
firms, vessels, and state-owned enterprises engaging in transporting 
Venezuelan oil to Cuba. We consistently pursue new actions to raise the 
costs to Cuba for its support of Maduro, its destabilizing role in the 
hemisphere, and oppression of its own people by focusing on the 
Venezuela-Cuba oil trade as well as the Cuban regime's primary sources 
of hard currency revenue.

    Question. Considering the well-documented ties between the Maduro 
regime and the Ejercito de Liberacion Nacional (ELN), and Cuba's 
harboring of ELN terrorists, should the Cuban regime be listed as a 
State Sponsor of Terrorism?

    Answer. As a matter of law, in order to designate any country as a 
state sponsor of terrorism, the Secretary of State must determine that 
the government of that country has repeatedly provided support for acts 
of international terrorism.
    The Department of State consistently, and on an ongoing basis, 
reviews available information and intelligence, from many sources, on 
possible state support for acts of international terrorism, evaluating 
all credible, verified, and corroborated information in its entirety.
    In 2015, Cuba's State Sponsor of Terrorism designation was 
rescinded after careful review of all available evidence. We continue 
to review new evidence as it arises, but to date the Secretary has not 
made a determination for another change.

    Question. In February 2016, the Office of Foreign Assets Control 
allowed the Cuban regime to register the Havana Club rum brand in the 
U.S. What is stopping the Administration from reversing this decision?

    Answer. The Department routinely works with OFAC to provide foreign 
policy input into OFAC's licensing decisions. Regarding specific 
licensing issues, we defer to the Department of Treasury for further 
information. Similarly, we refer questions regarding trademark 
registration to the U.S. Patent and Trademark Office.
                                 ______
                                 

               Responses of Elliott Abrams to Questions 
                  Submitted by Senator Robert Menendez

    Question. What is your assessment of specific states and/or 
territory in Venezuela that are not under the complete control of the 
Interim Government or the Maduro regime--i.e. ungoverned territory in 
Venezuela?

    Answer. Venezuela's ungoverned territory is growing and disputed 
among armed actors. The illegitimate Maduro regime and local criminal 
organizations, and infrequently dissident forces, share control in many 
parts of the country. Regime control is probably weakest in Amazonas, 
Apure, Bolivar, Tachira, and Zulia because of their distance from the 
capital, the prevalence of illegally armed groups like the ELN and 
FARC, the impact of illegal mining, and security force manpower 
shortages. In some instances, we have seen how the Maduro regime has 
actively empowered illegally armed groups, gifting them mines, weapons, 
or medications to enforce their control over territory in exchange for 
political support. This landscape is constantly changing, in part 
depending on the regime's ability to fund and shield the groups and 
sporadic operations to bring them back under regime influence. Armed 
colectivos--armed groups that are largely regime sponsored--operate in 
15 of Venezuela's 23 states, according to a 2019 InSight Crime report. 
As we plan for a transition scenario, focusing on the challenges 
presented by these ungoverned territory is a priority.

    Question. What is your estimate of the number of members of 
Colombia's ELN that operate in Venezuelan territory?

    Answer. According to local and international media, ELN was present 
in 12 of Venezuela's 24 states (with particular strength in Anzoategui, 
Amazonas, Apure, Bolivar, Zulia, and Tachira states). The ELN's 
presence has expanded beyond its historic base in the border zone with 
Colombia. Colombian authorities estimate there are around 3,000 active 
members of the ELN in total, 1,400 of whom the government assesses are 
camped across the border in Venezuela. Colombian authorities have also 
assessed there are 36 ELN camps strategically located on the Venezuela 
side of the Colombia-Venezuela border.

    Question. What is your assessment of the operations conducted by 
Colombia's ELN operating in Venezuelan territory?

    Answer. The ELN engage in narcotrafficking, illegal mining, money 
laundering, extortion, and kidnapping in Venezuela. Media reports 
indicate an increasing role for the ELN in regime-subsidized food 
distribution, contraband (gas, basic goods, meat), extortion, illegal 
mining, and recruitment propaganda, at times via control of radio 
stations. The ELN is increasingly recruiting vulnerable Venezuelans, 
including children and those seeking to migrate, to join its ranks. 
There were also reports noting sporadic activity by ELN in the areas of 
road/border checkpoints. These activities contribute to instability in 
the region--one of many reasons why the Maduro regime needs to go as it 
is unwilling and unable to counter the ELN's illegal activities.

    Question. What is your estimate of the number of members of former 
members of Colombia's FARC that operate in Venezuelan territory?

    Answer. Revolutionary Armed Forces of Colombia dissidents (FARC-D) 
are present in Venezuela, but we do not have reliable estimates of 
their numbers at this time, in part because Venezuela permits criminal 
groups to transit easily and to operate in the border regions of either 
side. Maduro stated publicly in July 2019 that former FARC commanders 
Ivan Marquez and Jesus Santrich are ``leaders of peace'' and ``welcome 
in Venezuela,'' shortly before the two announced a return to armed 
conflict as FARC dissidents. In 2019 in Colombia, an estimated 2,600 
FARC dissidents who never demobilized, left the peace process, or are 
new recruits, continued violent attacks, primarily to enable narcotics 
trafficking and other criminal activities particularly in border 
regions and areas previously controlled by the former FARC.

    Question. What is your assessment of the operations conduct by 
former members of Colombia's FARC operating in Venezuelan territory?

    Answer. The dissidents of the Revolutionary Armed Forces of 
Colombia (FARC-D) engage in narcotrafficking, illegal mining, money 
laundering, extortion, and kidnapping in Venezuela. Financial ties with 
FARC-D and Venezuelan paramilitary groups facilitate the public 
corruption and graft schemes of the regime to include members of the 
armed forces acting at the behest of Maduro and his inner circle or in 
their own personal interest. Of concern, there were reports noting 
sporadic cooperation with FARC-D in the areas of road/border 
checkpoints, subsidized food distribution, recruitment and forced 
displacement of vulnerable indigenous communities, and trafficking of 
illegal narcotics and gold. These activities contribute to instability 
in the region--one of many reasons why the Maduro regime needs to go.

    Question. Is it your assessment that there are paramilitary groups 
operating in Venezuelan territory? If yes, please provide a description 
of their numbers, organization, and operations.

    Answer. I assess there are paramilitary groups operating in 
Venezuela. The groups probably range in size from a few dozen to 
several thousand members, are typically hierarchical in structure, and 
often have some linkage to the Maduro regime or other armed groups 
through alliances or non-aggression pacts. A few of the larger groups 
are likely to oppose a transition from the Maduro regime because of 
their mutually beneficial relationship for maintaining power and money, 
even if there are no ideological ties. They most commonly fund 
themselves with extortion, drug trafficking, and illicit mining.

    Question. What is your estimate of the number of members of 
colectivos operating in Venezuelan territory?

    Answer. There are roughly a dozen armed colectivos operating in the 
country with smaller groups operating within them. It is impossible to 
provide an estimate because the groups evolve and combine or divide 
frequently, depending on their loyalty or resistance to the Maduro 
regime and their ability to control territories.

    Question. What is your assessment of the operations of colectivos 
operating in Venezuelan territory?

    Answer. Armed colectivos are more likely to be legitimized and 
funded by the regime and be more ideologically consistent with it than 
other non-state armed groups. Some colectivo members have overlapping 
membership in a Venezuelan security service or are politicians. Thus, 
colectivos are most likely to take up arms to defend the regime in a 
transition. The groups are the most powerful in Caracas and the greater 
capital district and near the border. While most armed colectivos 
operate in cahoots with regime authority, some are an expression of 
their community and may accept a transitional government if they are 
allowed full political participation.

    Question. What is your estimate of the number of Cuban intelligence 
personnel (military and/or civilian) operating in Venezuelan territory?

    Answer. Media reports that the total Cuban presence, including 
medical doctors, probably reaches between 20,000 and 25,000. It is not 
just the number that is significant, however, but also their role. We 
assess Cuban elements are pervasive in Maduro's security and 
intelligence forces, and conduct training exercises and loyalty checks 
to root out anyone who is seen to be sympathetic to the opposition. I 
have made statements to the press that there are more than 2,000 Cuban 
intelligence personnel in Venezuela.

    Question. What is your assessment of the operations of Cuban 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. Cuban military and intelligence advisors actively support 
Maduro through the provision of security forces, intelligence officers, 
and providing direction to Venezuelan authorities. They equip the 
regime with the tools they need to repress any domestic or internal 
dissent, including in his military. In its 2019 annual report, the 
Casla Institute, a Czech human rights body, revealed the ``systematic 
repression and torture, Cuban influence, and significant changes in the 
methods of torture in Venezuela.'' The Cuban intelligence personnel are 
also, in my view, critical to Maduro in heading off coups, by spying on 
military officers and hindering lateral communication among them.

    Question. What is your estimate of the number of Russian 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. The State Department does not have an estimate for the 
number of Russian intelligence personnel in Venezuela. The Department 
would be willing to provide a classified briefing on this issue. 
Nevertheless, according to media reports, as many as 100 Russian troops 
are present in Venezuela, without the constitutionally required consent 
of the legitimate National Assembly.

    Question. What is your assessment of the operations of Russian 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. Russian support for the Maduro regime includes military 
advisors and proxies, disinformation mechanisms, political influence on 
the world stage, and financial backing. In return, Russia receives 
access to Venezuela as a potential military power projection platform 
in the Western Hemisphere, a foothold for disinformation and influence 
campaigns against the United States and our allies, and investment 
payoffs from foreign military sales and the exploitation of Venezuela's 
oil and other natural resources.

    Question. What is your estimate of the number of Chinese 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. We do not have an estimate for the number of People's 
Republic of China (PRC) intelligence personnel operating in Venezuela. 
The Department would be willing to provide a classified briefing on 
this issue.

    Question. What is your assessment of the operations of Chinese 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. We do not have an estimate for the number of People's 
Republic of China (PRC) intelligence personnel operating in the 
country. However, media reports note that the Chinese 
telecommunications firm ZTE has played a critical role in the 
illegitimate Maduro regime's ``fatherland card,'' a national 
identification card program that enables the regime to deliver social 
services, while also surveilling the Venezuelan people to channel a 
subsidized food program to political supporters. More broadly, we 
assess that the PRC's support for the regime is grounded in protecting 
its economic interests. The State Department is willing to provide a 
classified briefing on this issue.

    Question. What is your estimate of the number of Iranian 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. We do not have an estimate for the number of Iranian 
intelligence personnel operating in Venezuela. The Department would be 
willing to provide a classified briefing on this issue.

    Question. What is your assessment of the operations of Iranian 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. We have seen cooperation between Venezuela and Iran 
increase as the economic and social conditions within Venezuela 
deteriorate. Venezuela and Iran have established joint military 
ventures, including for the manufacture of munitions, though the 
factory to produce such munitions is incomplete.

    Question. What is your understanding of the value of assets stolen 
from the Venezuelan people by the Maduro regime and the Chavez 
government?

    Answer. Though it is impossible to precisely quantify how much 
public money has been stolen by these regimes, we currently estimate 
the total value of stolen and misspent assets is hundreds of billions 
of dollars.

    Question. What is the total value of blocked assets in the United 
States as a result of U.S. sanctions and/or legal cases against the 
Maduro regime, members of the regime, regime intermediaries, and/or 
legal entities related to the regime?

    Answer. We refer you to the Department of the Treasury for details 
on U.S.-based assets blocked under our sanctions. We refer you to the 
Department of Justice for details on the disposition of any assets 
associated with legal cases involving members of the Maduro regime or 
its associated entities.

    Question. Outside of the United States, which three countries have 
blocked assets of the greatest value as a result of sanctions and/or 
legal cases against the Maduro regime, members of the regime, regime 
intermediaries, and/or legal entities related to the regime? (Note: 
please provide the name of the country and the estimated value of the 
assets.)

    Answer. Our Venezuela sanctions program has helped block malign 
individuals and entities from accessing the U.S. financial system, 
which, in turn, has dissuaded third countries from conducting business 
with the Maduro regime. We do not have an estimate for the size of 
third country commercial activity that was suspended as a result of 
sanctions. As identified in our recent report to Congress on recovering 
assets stolen from the Venezuelan people, a number of public cases 
related to corruption of Venezuelan officials have been brought in 
other countries, including Andorra, Liechtenstein, New Zealand, 
Portugal, Spain, and Switzerland.

    Question. What is your assessment of which individual countries in 
Latin America and the Caribbean have the most developed legal 
frameworks to impose targeted sanctions (visa revocations and/or asset 
blocking) that could be and/or have been used against members of the 
Maduro regime? (Note: please provide the names of the countries and a 
description of their respective sanctions capacities.)

    Answer. Despite the resolutions adopted late last year under the 
Inter-American Treaty of Reciprocal Assistance (TIAR) addressing 
sanctions in connection with persons associated with the Maduro regime, 
some countries in the region lack the legislation and/or do not have 
sufficiently-developed frameworks to apply targeted sanctions. However, 
many TIAR countries have transmitted TIAR sanctions lists to the 
appropriate domestic migratory, legal, and financial authorities to 
ensure implementation of travel restrictions and consider opening 
investigations into illicit Venezuelan activities. Brazil, for example, 
has implemented travel/entry restrictions against 100 Venezuelan 
officials affiliated with the illegitimate Maduro regime. While 
implementing targeted financial sanctions such as asset blocking will 
require technical capacity-building, we believe Western Hemisphere 
countries can do even more to implement travel and visa restrictions. 
We continue to work with all willing nations to leverage all available 
tools against the Maduro regime.

    Question. Please provide a brief overview of all active legal cases 
against current and former Maduro regime officials, as well as 
individuals affiliated with the Maduro regime.

    Answer. For specifics on active legal cases against current and 
former Maduro regime officials, we would refer you to the Department of 
Justice.

    Question. Please provide a list of all completed legal cases 
against current and former Maduro regime officials, as well as 
individuals affiliated with the Maduro regime.

    Answer. For a list of all completed legal cases against current and 
former Maduro regime officials, we would refer you to the Department of 
Justice.

    Question. Please provide a detailed summary of all settlements and 
judgments against current and former Maduro regime officials, as well 
as individuals affiliated with the Maduro regime.

    Answer. For a detailed summary of all settlements and judgements 
against current and former Maduro regime officials, as well as 
individuals affiliated with the Maduro regime, we would refer you to 
the Department of Justice.

    Question. Please provide a summary of the financial value of all 
assets recovered or in the process of being recovered through civil or 
criminal forfeiture proceedings as a result of the previous two 
questions above, including the total combined value of all such assets.

    Answer. For a summary of the financial value of all assets 
recovered or in the process of being recovered through civil or 
criminal forfeiture proceedings, we would refer you to the Department 
of Justice.

    Question. Please identify the current location of all such assets 
described in the previous question, specifically whether they are 
located in a DOJ managed fund and/or a Treasury managed fund, 
including, but not limited to the Treasury Forfeiture fund.

    Answer. I refer you to the Department of Justice and the Department 
of Treasury for specifics on the size and nature of funds deposited in 
the Treasury Forfeiture Fund or other holdings.

    Question. Please provide a detailed summary of how DOJ/Treasury are 
managing such funds described in the previous two questions above, 
including a review of accounting procedures to keep track of such funds 
and intention for use of such funds.

    Answer. I refer you to the Department of Justice and the Department 
of the Treasury for details on accounting procedures associated with 
criminal and civil asset forfeitures and the Treasury Forfeiture Fund.

    Question. Please provide a detailed review of whether such funds 
described in the questions above have already been used, allocated, or 
obligated for any U.S. Government programs, projects, initiatives and/
or activities.

    Answer. Any funds in the Treasury Forfeiture Fund recovered from 
Venezuelan cases are held in conjunction with funds recovered from all 
other asset forfeiture cases. I refer you to the Department of the 
Treasury for specific rules and processes for disposition of resources 
from the Treasury Forfeiture Fund.

    Question. Please provide an overview of any plans or provision the 
executive branch has made for the return of such assets described in 
the questions above to the Interim Government and/or people of 
Venezuela.

    Answer. In our recent Verdad Act report on asset forfeiture, we 
explained the processes and procedures under U.S. law that exist for a 
foreign country to request forfeited funds. The U.S. Government relies 
on licenses to enable the Interim Government to access assets blocked 
under our sanctions program, and we believe that funds subject to 
forfeiture should be returned to the people of Venezuela to the 
greatest extent possible provided that doing so can be done in 
accordance with operative U.S. laws, regulations, and processes.

    Question. Have any of the funds described in the questions above 
been utilized for any expenditures or obligations related to the 
construction of a border wall on the southwestern border of the United 
States?

    Answer. Any funds in the Treasury Forfeiture Fund recovered from 
Venezuela are held in conjunction with funds recovered from all other 
asset forfeiture cases. As a result, it is not possible to determine 
the origin of the funds used to support Customs and Border Protection's 
(CBP) security work at the border.

    Question. What specific steps are the State Department and USAID 
taking to expand access inside Venezuela for organizations seeking to 
deliver life-saving assistance, with respect for the humanitarian 
principles of neutrality, impartiality, and independence?

    Answer. State and USAID have provided more than $76 million in 
funding to humanitarian partners for critical health, water, food, and 
other life-saving assistance inside Venezuela. Maduro has made it 
extremely difficult for international NGOs to register, and for 
humanitarian workers to obtain entry visas to deliver aid. State and 
USAID are working with the U.N. humanitarian country team to advocate 
for increased access to beneficiaries. As an example, State has pressed 
hard, including enlisting other governments with friendlier relations 
with the Maduro regime, to get Maduro to approve the opening of World 
Food Program activities in Venezuela. Despite all the constraints, 
partners continue to provide life-saving assistance where possible, and 
we commend them for these efforts in such difficult circumstances.

    Question. What is the status of the Lima Group and what specific 
diplomatic efforts have U.S. officials made to support its agenda in 
the past 3 months?

    Answer. The Lima Group remains active and continues to be a close 
partner of the United States in denouncing the illegitimate Maduro 
regime, bolstering support for Interim President Juan Guaido, and 
calling for free and fair presidential and parliamentary elections in 
2020. On April 2, the Lima Group announced its backing for the U.S. 
proposed Democratic Transition Framework for Venezuela. On June 16, the 
Lima Group issued another statement strongly rejecting the illegitimate 
naming of a new National Electoral Council (CNE) and reiterating its 
call for free and fair presidential and parliamentary elections. We 
also are working with concerned members of the Lima Group, the 
International Contact Group, and the European Union on a joint 
declaration on democracy in Venezuela. The United States continues to 
engage with the Lima Group toward our shared goal of a democratic 
transition in Venezuela.

    Question. What is the status of the Quito Process and what specific 
diplomatic efforts has the United States made to support this forum in 
the last 6 months?

    Answer. The United States continues to support the Quito Process as 
it enhances coordination among key host countries of Venezuelan 
refugees and migrants, fosters region-led solutions to the Venezuela 
situation, and promotes greater burden sharing in the humanitarian 
response to Venezuelan outflows. The United States recently joined the 
``Group of Friends'' of the Quito Process and participated in the first 
meeting on August 6, 2020. The United States will participate in the 
sixth Quito Process meeting, hosted by Chile, in late September, and 
will continue advocating for a regional solution to the Venezuela 
situation.

    Question. Please describe specific diplomatic efforts U.S. 
officials have undertaken in Colombia to improve protection for 
Venezuelan refugees and migrants.

    Answer. Colombia has borne the largest share of refugees fleeing 
the Venezuelan crisis, welcoming over 1.8 million refugees. Supporting 
Colombia in this crisis is a significant U.S. priority. Since FY 2017, 
the United States has contributed more than $265 million in 
humanitarian assistance to international and non-governmental 
organizations in Colombia to assist with emergency response efforts, 
including protection from gender-based violence and trafficking in 
persons. We also welcomed a Colombian initiative to confer Colombian 
nationality on Venezuelan children born in Colombia and applauded its 
constructive efforts in regional refugee forums. U.S. officials 
regularly engage other key donors to highlight the importance of 
protection and encourage increased burden sharing in the humanitarian 
response.

    Question. Please describe specific diplomatic efforts U.S. 
officials have undertaken in Ecuador to strengthen protection of 
Venezuelan refugees and migrants, particularly to improve access to 
asylum and legal status?

    Answer. Ecuador has accepted over 362,000 Venezuelan refugees since 
the start of the Venezuelan migration crisis. Since FY 2017, the United 
States has contributed more than $80 million in humanitarian aid to 
international and non-governmental organizations in Ecuador to assist 
with emergency response efforts, including protection from gender-based 
violence and trafficking in persons. Through our partners, the United 
States has also supported the Government of Ecuador's efforts to 
register and grant legal status to Venezuelans in the country as well 
as strengthen asylum and refugee adjudication processes. U.S. officials 
regularly engage other key donors to highlight the importance of 
protection and encourage increased donor burden sharing in the 
humanitarian response.

    Question. Please describe specific diplomatic efforts U.S. 
officials have undertaken in Peru to improve protection for Venezuelan 
refugees and migrants.

    Answer. Peru has welcomed close to 830,000 Venezuelan refugees 
since the start of the Venezuelan crisis. Since FY 2017, the United 
States has provided nearly $59 million in humanitarian aid to support 
Peru's efforts to respond to the influx of Venezuelans, including 
support for protection from gender-based violence and trafficking in 
persons. The United States prioritizes efforts that strengthen Peru's 
capacity to provide protection and identify and assist the most 
vulnerable Venezuelans, and we advocate for measures to register and 
regularize the status of undocumented Venezuelans. U.S. officials 
regularly engage other key donors to highlight the importance of 
protection and encourage increased donor burden sharing in the 
humanitarian response.

    Question. Please describe specific diplomatic efforts U.S. 
officials have undertaken with governments in Caribbean island nations 
to improve protection for Venezuelan refugees and migrants.

    Answer. Since FY 2017, the United States has contributed more than 
$19 million in humanitarian aid to international and non-governmental 
organizations in the Caribbean to assist with emergency response 
efforts, including protection from gender-based violence and 
trafficking in persons. U.S.-funded programs also help host governments 
develop contingency plans and build institutional capacity. As a 
result, for example, in May 2019, the Government of Trinidad and Tobago 
registered more than 16,000 Venezuelan asylum seekers in 2 weeks. 
Previously, the government had treated asylum seekers as illegal 
entrants. U.S. officials regularly highlight the importance of 
protection and encourage increased donor burden sharing.

    Question. Given the U.N. Population Fund's leadership in 
humanitarian response to gender-based violence, its critical role 
supporting maternity hospitals in Venezuela, and its provision of 
reproductive health care for Venezuelan refugees and migrants, what is 
the impact on Venezuelan women of this Administration's prohibition on 
funding UNFPA?

    Answer. In light of the UNFPA funding prohibition, the State 
Department has focused its resources on funding a variety of programs 
aimed at strengthening health services for Venezuelan refugees, 
particularly women. This is especially important in Venezuela, given 
the disproportionate impact on women caused by the regime's support of 
illicit mining. In doing so, there are many organizations we work with 
to prevent and respond to gender-based violence (GBV), and which 
support maternal health care, voluntary family planning, and 
reproductive health programs. Venezuelan partners work to provide 
survivors of GBV access to case management, legal assistance, health 
services, and humanitarian aid. All of USAID's programming in Venezuela 
includes components to address GBV.

    Question. How is the financial crisis resulting from COVID-19 
affecting the World Bank and Inter-American Development Bank's proposed 
concessional financing for Colombia, Ecuador, and other countries 
hosting Venezuelan refugees and migrants?

    Answer. Despite the financial crisis due to COVID-19, the World 
Bank and Inter-American Development Bank continue to offer loans to 
Colombia, Ecuador, and other countries hosting Venezuelan refugees and 
migrants. In April, the World Bank approved for Ecuador the $500 
million Second Inclusive and Sustainable Growth Development Policy 
Loan, which was supplemented with $6 million from the Global 
Concessional Financing Facility. In June, the World Bank approved for 
Colombia the $700 million ``COVID-19 Response Development Policy 
Financing'' project.

    Question. How many Venezuelans have requested asylum in the United 
States to date in FY 2020?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. How many Venezuelans have been granted asylum in the 
United States to date in FY 2020?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. How many Venezuelans requested asylum in the United 
States in FY 2019?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. How many Venezuelans were granted asylum in the United 
States in FY 2019?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. How many Venezuelans has the United States returned to 
Mexico under the Migrant Protection Protocols?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. How many Venezuelans has the United States expelled to 
Mexico under Title 42?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. We understand that representatives of Venezuela's Interim 
Government have visited Venezuelans in immigration detention 
facilities. How many Venezuelans are currently in immigration detention 
in the United States?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. How many Venezuelans have been deported from the United 
States to date in FY 2020?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. How many Venezuelans were deported from the United States 
in FY 2019?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. When was the last date that a Venezuelan national was 
removed from the United States?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. During the course of FY 2018, FY 2019 and/or FY 2020, 
were any Venezuelan nationals deported, removed, or transferred from 
the United States to any country other than Venezuela?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. During the course of FY 2018, FY 2019 and/or FY 2020, if 
there were any Venezuelan nationals deported, removed, or transferred 
from the United States to any country other than Venezuela, which 
countries were they deported, removed, or transferred to?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. If countries were affirmatively identified in the 
response to question #50, what diplomatic outreach did the State 
Department conduct in order to arrange for and such deportation, 
removals, and/or transfers?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. During the course of FY 2018, FY 2019 and/or FY 2020, if 
there were any Venezuelan nationals deported, removed, or transferred 
from the United States to any country other than Venezuela, how many 
Venezuelan nationals were deported, removed, or transferred to such 
countries?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. If a number of individuals was affirmatively identified 
in the response to the question above, what happened to any such 
Venezuelan nationals once they were deported, removed, or transferred 
to such countries?

    Answer. The Department of Homeland Security (DHS) manages the 
statistics on these programs; we refer your question to DHS for more 
information.

    Question. What additional steps do we need to take to counter the 
Cuban regime's continued activities inside Venezuela?

    Answer. The illegitimate Maduro regime has destroyed Venezuela's 
institutions, economy, and infrastructure through its abuse of power 
and by welcoming malign support from outside nations, including Cuba. 
The Department and White House have condemned Cuban involvement in 
Venezuela and have encouraged our partners to do the same. Among 
responses to Cuban individuals and/or entities supporting the 
illegitimate Maduro regime, the U.S. Government has targeted for 
sanctions firms, vessels, and state-owned enterprises engaging in the 
trade of Venezuelan oil to Cuba, giving away a natural resource at the 
expense of the Venezuelan people. We will seek additional opportunities 
to implement appropriate measures in connection with Cuban individuals 
and/or entities responsible for funding or otherwise enabling the 
Maduro regime.

    Question. What changes do we need to make to address Putin's 
continued maneuvering in Venezuela?

    Answer. The Department and White House have condemned Russian 
involvement in Venezuela and encourage our partners to do the same. 
Moreover, the U.S. Government has designated Rosneft Trading SA and TNK 
Trading International, indicating that we no longer are merely going to 
message on Russia's malign activities, we are going to take clear 
action. We must continue to raise the costs for Putin's continued 
maneuvering in Venezuela and we will seek additional opportunities to 
implement appropriate measures in connection with Russian individuals 
and/or entities responsible for funding or otherwise enabling the 
illegitimate Maduro regime.

    Question. What additional steps do we need to take to put a stop to 
Turkey's transactions in Venezuelan gold and oil?

    Answer. The Department of the Treasury last year designated a 
Turkish company that was used as part of Alex Saab's corruption network 
for the illicit sale of gold to Turkey. The Administration's maximum 
pressure campaign includes commercial and economic sanctions, deterring 
all activities that benefit the illegitimate regime, and cutting off 
the financial lifelines that sustain it. This maximum pressure campaign 
will continue until a democratic transition is in place. The 
international business community should already be aware of the legal 
risk of any transactions with the illegitimate and tyrannical regime of 
Nicolas Maduro. The Department is working to uncover other networks for 
disruption through sanctions and other actions.

    Question. What additional steps do we need to take to better 
counter Iran's support for Maduro?

    Answer. The President has made clear the United States will not 
tolerate continued meddling in Venezuela by supporters of an 
illegitimate regime, including Iran. The Administration's maximum 
pressure campaign includes commercial and economic sanctions, deterring 
all activities that benefit the illegitimate regime, and cutting off 
the financial lifelines that sustain it. This maximum pressure campaign 
will continue until a democratic transition is in place. The 
international business community should already be aware of the legal 
risk of any transactions with the illegitimate and tyrannical regime of 
Nicolas Maduro. The Department continues to work with regional partners 
to counter Iran's influence in Venezuela.

    Question. How can we make it clear to Beijing that continued 
support for Maduro will not be overlooked and will come with a cost?

    Answer. The People's Republic of China's (PRC) support for the 
regime is grounded in protecting its own economic interests. The PRC 
could play a constructive role in helping end the misery, but declines 
to do so, instead taking hundreds of millions of dollars from the 
Venezuelan people and providing the regime diplomatic support. We will 
continue to work with our regional allies to demonstrate that PRC 
support for Maduro comes at a cost for the PRC in the region, and we 
will seek additional opportunities to implement appropriate measures to 
prevent the PRC from further enabling the illegitimate Maduro regime.
                                 ______
                                 

                Responses of Joshua Hodges to Questions 
                  Submitted by Senator Robert Menendez

    Question. What are the State Department and USAID doing to expand 
access inside Venezuela for organizations seeking to deliver life-
saving assistance, with respect for the humanitarian principles of 
neutrality, impartiality, and independence?

    Answer. USAID and State continue to advocate for the illegitimate 
Maduro regime to provide unrestricted access to the global humanitarian 
community to safely deliver aid directly to those who need it, to 
assess situations in real time, and to be able to monitor the results. 
In addition, USAID is working with international partners on pathways 
to increase access inside Venezuela. Maduro should allow all 
humanitarian actors to work in Venezuela under the humanitarian 
principles of neutrality, impartiality, and independence.
    To date, Maduro has made it extremely difficult for international 
NGOs to legally register and for humanitarian workers to obtain visas 
to enter the country. This, coupled with ongoing logistical impediments 
and security concerns for our partners, prevents humanitarian 
organizations from responding at a scale commensurate with the 
magnitude of the needs created by this economic, political, and social 
crisis. Despite these constraints, partners continue to provide life-
saving assistance where possible, and we commend them for these efforts 
in such difficult circumstances. State and USAID have provided more 
than $76 million in funding to humanitarian partners for critical 
health, water, food, and other life-saving assistance inside Venezuela. 
USAID is supportive of the humanitarian architecture that has been 
established by UN OCHA in 2019, including the appointment of a 
Humanitarian Country Team, activation of the cluster system for 
coordinating the response, and release of the Humanitarian Needs 
Overview and Humanitarian Response Plans. We continue to work to ensure 
that funding is used in an effective and qualitative manner.
    We will continue to provide humanitarian partners with support as 
they work to operate on the ground inside Venezuela, to help save lives 
and mitigate suffering.

    Question. What steps are you taking to help the World Food Program 
negotiate access to deliver humanitarian assistance in Venezuela?

    Answer. The U.S. Government continues to call on the illegitimate 
Maduro regime to provide unrestricted, safe, and continuous access to 
the global humanitarian community to deliver aid directly to those who 
need it, to assess situations in real time, and to be able to monitor 
the results.
    USAID has supported the World Food Program's (WFP) negotiations for 
access to Venezuela for over a year. At this point, WFP has informed 
USAID that access negotiations are nearing a successful breakthrough; 
however, the agency continues to proceed with necessary caution to 
ensure full independence and neutrality are secured in their agreements 
with the regime. Ensuring an agreement adheres to United Nations 
policies and principles, and the general restrictions due to the 
ongoing COVID-19 pandemic, continue to affect the timeline for 
establishing operations in the country. As background, in 2019 USAID 
provided $15 million to WFP to support their Multi-Country Limited 
Emergency Operations for Venezuela and countries impacted by the crisis 
in Venezuela. This funding supported WFP's Emergency Food Security 
Assessment in 2019 and planning efforts for the Venezuela response.

    Question. Please describe the factors preventing NGOs from 
registering and/or expanding assistance in Venezuela and what specific 
steps the State Department and USAID are taking to address these 
challenges.

    Answer. Maduro and his illegitimate regime have continued to impede 
relief efforts and limit access of critical needs to the Venezuelan 
people, and have made it extremely difficult for international NGOs to 
legally register and for skilled foreign aid workers to obtain visas to 
enter the country. This, coupled with ongoing logistical impediments 
and security concerns for our partners, prevents humanitarian 
organizations from responding at a scale commensurate with the needs 
created by this economic and political crisis. While the illegitimate 
Maduro regime has impeded relief efforts and made it extremely 
difficult for international NGOs to register and for international 
humanitarian expert staff to enter the country, partners continue to 
provide life-saving assistance where possible, and we commend them for 
these efforts in such difficult circumstances. As long as it is 
possible for U.S. Government (USG) partners to operate on the ground 
inside Venezuela, we will continue to provide them with support to help 
save lives and mitigate suffering.
    The main factors preventing NGOs from registering in Venezuela are 
the fabricated bureaucratic impediments and restrictions imposed by the 
illegitimate Maduro regime. Even after a year of advocacy from the 
United States, United Nations and the NGO community, the regime has not 
established a legal process or mechanism at the national level in 
Venezuela to recognize international NGOs. The regime is not creating 
this legal mechanism because it has an aversion to NGOs setting up 
operations and expanding operations.
    Without a national level mechanism, select NGOs are opting to 
register at the municipal level as a work-around. If they obtain this 
municipal level registration, NGOs are able to function at some level. 
While municipal level registration does not provide NGOs with the legal 
agreements required to obtain humanitarian staff visas or import 
permits; it does allow them to set up offices, hire domestic staff, and 
work inside Venezuela.
    USAID has been advocating with UN OCHA since 2019 to pressure the 
Maduro regime to stop inhibiting NGO registration and legal entry as 
international entities.

    Question. Are gender-based violence and reproductive health 
priorities for U.S. humanitarian assistance inside Venezuela? If so, 
how is this reflected in U.S. programs on the ground?

    Answer. The United States is committed to helping ensure the safety 
and well-being of women around the world.
    Health, protection, and gender-based violence (GBV) are priorities 
for USAID-funded assistance in Venezuela. USAID humanitarian funding 
supports protection activities that seek to prevent, mitigate, and 
respond to harm, exploitation, and abuse for crisis-affected 
populations, prioritizing the most vulnerable. Through humanitarian 
partners, protection activities may include a specific focus on the 
needs of children, prevention and response to GBV, psychosocial support 
services for individuals or groups affected by trauma, and data 
collection and reporting to strengthen advocacy efforts. USAID supports 
stand-alone protection activities as well as incorporating protection 
into other forms of assistance, and ensuring the assistance is 
delivered to minimize the risk of violence, exploitation, and abuse. 
USAID health activities may also include support for survivors of GBV, 
such as clinical management of rape, prevention, and treatment of 
sexually transmitted infections, and mental health services.
    In Venezuela, one partner works with survivors of GBV to ensure 
they have access to case management, legal assistance, health services, 
and humanitarian aid to meet basic needs. Given the relative lack of 
services available to GBV survivors in Venezuela, the partner also 
focuses on prevention activities to include awareness raising, 
providing referrals, and capacity building of local partners. Over the 
next 12 months, the partner is expected to reach 24,400 beneficiaries, 
primarily women and children.
    In Venezuela, another humanitarian health program managed by a U.N. 
agency is targeting 600,000 beneficiaries and includes the procurement 
and distribution of supplies, including midwifery and obstetric and 
neonatal kits and equipment. Across 10 states, this program supports 
the training of health workers in antenatal, maternal, and neonatal 
care practices.

    Question. How is USAID adjusting development plans in Colombia, 
Ecuador and other countries to integrate the needs of Venezuelans and 
their host communities? What resources is USAID devoting to health and 
education infrastructure in communities hosting Venezuelan refugees and 
migrants?

    Answer. In Colombia, Peru, Brazil, and Ecuador, USAID is working 
alongside other U.S. Government agencies and with a variety of 
partners, such as host-country governments, NGOs, civil society, public 
international organizations, and faith-based organizations, to help 
communities absorb the influx of vulnerable Venezuelans. In total, 
USAID has invested more than $102 million in development funding across 
the region to address these longer-term needs since Fiscal Year 2017. 
While USAID does not have development programming that specifically 
targets health and education infrastructure, we are working in the 
health and education sector in Colombia.
    In Colombia, USAID has strategically focused part of its new 
country strategy to support the medium to long term response to the 
Venezuela regional crisis. By doing so, USAID will work to increase 
stability in areas impacted by migration from Venezuela by fostering 
socio-economic integration in migrant receptor communities. Projects 
supporting these efforts include the Agency's recently launched health 
system strengthening program. This program will support the Government 
of Colombia to integrate refugees and migrants into the health system 
and provide sustainable health services to migrants. In May 2020, 
USAID/Colombia also launched an activity to protect migrant human 
rights and expand their access to justice (Conectando Caminos por los 
Derechos). USAID is also planning to initiate a new education activity 
targeting refugees and migrants in the coming months.
    Development initiatives in Peru, Brazil, and Ecuador for refugee 
and migrant populations in the region include support for socioeconomic 
integration through job training and placement programs, support for 
small business and entrepreneurs, and facilitating access to financial 
services. While these programs do not directly target the health or 
education sectors, there have been some tangible benefits. For example, 
our development assistance supports the local recognition of 
professional degrees, which has resulted in nearly 100 Venezuelan 
doctors in Peru obtaining their local medical license. These Venezuelan 
doctors are now able to contribute their medical expertise to Peru's 
health system.
                                 ______
                                 

               Responses of Elliott Abrams to Questions 
                   Submitted by Senator Chris Murphy

    Question. When asked about the May 3-4 raid attempted by Venezuelan 
expats and the security contractor Silvercorp USA, Secretary Pompeo 
said, ``This was not an American effort. This wasn't something that we 
directed or guided.'' When did the Administration become aware of 
Silvercorp USA's planned activities? Please provide a date.

    Answer. To the best of our knowledge and belief, the State 
Department and I became aware of Silvercorp USA's planned activities 
the day of the raid, May 3, 2020. A member of the media contacted 
Department press officers on a handful of occasions prior to May 3, but 
there were no questions or indications of ongoing activities and 
Operation Gideon was not referenced.

    Question. When asked about the May 3-4 raid attempted by Venezuelan 
expats and the security contractor Silvercorp USA, Secretary Pompeo 
said, ``This was not an American effort. This wasn't something that we 
directed or guided.'' Did Silvercorp USA obtain its weapons or 
equipment without any knowledge within the U.S. intelligence or 
diplomatic community?

    Answer. To the best of our knowledge and belief, the State 
Department was not aware of Silvercorp USA's efforts to obtain weapons 
or equipment.

    Question. According to the Wall Street Journal,\1\ the CIA was 
monitoring the would-be raiders' activities in La Guajira, Colombia. 
Was the State Department unaware of this intelligence?

    Answer. As a matter of policy and practice, the Department does not 
comment on such intelligence matters in unclassified communications.

    Question. According to the Wall Street Journal,\2\ the CIA was 
monitoring the would-be raiders' activities in La Guajira, Colombia. 
Secretary Pompeo has emphasized that the U.S. did not provide 
``direct'' support to the raid, but did the Administration make any 
effort to prevent this diplomatic disaster from occurring?

    Answer. To the best of our knowledge and belief, the State 
Department and I became aware of Silvercorp USA's planned activities 
the day of the raid, May 3, 2020. More broadly, the State Department 
and other USG agencies have repeatedly emphasized to all actors who 
have expressed an interest in the violent toppling of the Maduro regime 
that we support a peaceful resolution and would not back their efforts, 
either quietly or overtly.

    Question. According to the Washington Post,\3\ Juan Guaido's 
appointed ``Strategic Committee'' was tasked last August with exploring 
``under the table'' regime change strategies, including kidnapping 
Maduro and his associates. To that end, the committee reportedly met 
with ``a handful'' security contractors in separate meetings in U.S. 
territory, some who wanted as much as $500 million for the job. Was the 
Administration aware of meetings between Guaido representatives and 
security contractors on U.S. soil?

    Answer. I was not made aware of meetings between Guaido 
representatives and security contractors on U.S. soil related to this 
effort.

    Question. Has the State Department conducted any assessment of U.S. 
sanctions to determine their unintentional humanitarian impacts?

    Answer. We routinely assess the effects and consequences of 
sanctions to ensure our actions are targeting the true perpetrators of 
Venezuela's misery: the Maduro regime. We mitigate unintentional 
impacts of our sanctions program by continuing to support exemptions 
and carve-outs for all medical and humanitarian aid, and to date there 
has not been an instance of U.S. sanctions preventing the delivery of 
food or aid. It is also true in this as in all cases that our sanctions 
exempt food and medicine, and the regime fully understands this: from 
October 2019 through April, the latest data we have available, the 
United States was the second-largest supplier of food to Venezuela. In 
April 2020, the United States was the largest exporter of food and 
agricultural products to Venezuela.

----------------
Notes

    \1\ https://www.wsj.com/articles/poorly-organized-and-barely-
hidden-venezuela-invasion-was-doomed-to-fail-11589122800
    \2\ https://www.wsj.com/articles/poorly-organized-and-barely-
hidden-venezuela-invasion-was-doomed-to-fail-11589122800
    \3\ https://www.washingtonpost.com/world/the_americas/from-a-miami-
condo-to-the-venezuelan-coast-how-a-plan-to-capture-maduro-went-rogue/
2020/05/06/046222bc-8e4a-11ea-9322-a29e75effc93_story.html

                                  <all>
</pre></body></html>
